Office of
Inspector
General
Semiannual
Report to
the Congress
October I, 1989 to
March 31, 1990


May 1, 1990
FOREWORD
This report, submitted pursuant to the Inspector General Act of 1978, summa-
rizes Office of Inspector General (OIG) activity over the 6-month period ending
March 31, 1990. It is my ninth Report to the Congress.
OIG coverage of agency operations and programs primarily focused on contract-
ing activities this period. We issued 251 preaward contract audit reports to agen-
cy officials. These reports evaluated $1.1 billion in potential Government-wide
expenditures for space, supplies, materials, and services. We also completed 221
investigations involving white collar crimes, GSA programs, and contractor sus-
pensions and debarments. Our continued presence in these areas confirms our
awareness of the ever present vulnerabilities in the procurement process.
Overall, the OIG recommended almost $106 million in funds to be put to better
use and questioned costs and referred 174 subjects for criminal, civil, or adminis-
trative action. Management decisions on financial recommendations, voluntary
recoveries, court-ordered recoveries, and investigative recoveries totaled over
$138 million.
I am also pleased to report on actions taken to implement the new requirements
of the Inspector General Act Amendments of 1988. OIG and agency officials
worked together to successfully develop new management decision procedures
and to integrate computerized audit tracking systems. We believe that these
actions will assure consistent reporting on audit status. The OIG also adopted a
new format for this Report that better reflects our significant accomplishments
and addresses issues affecting the agency.
These accomplishments have been made possible by the dedicated OIG staff,
and the strong support this office has enjoyed from the Congress, the Office of
Management and Budget, and the GSA Administrator and his senior manage-
ment team.




WILLIAM R. BARTON
Inspector General


April 30, 1990
OVERVIEW
This report, submitted pursuant to the Inspector                                             •     The successful prosecution of the owner of a vac-
General Act of 1978, as amended, chronicles the activ-                                             uum cleaner supply company for billing the
ities of the General Services Administration (GSA)                                                 Government for items never delivered.
Office of Inspector General (OIG) between October 1,
1989 and March 31, 1990. It is the twenty-third                                              •     A $850,000 civil settlement with a computer and
                                                                                                   data processing supplier.
Report to the Congress since the appointment of GSA's
first Inspector General.                                                                 Detailed information on these and other activities is
                                                                                         presented in Section II.

A. Audit and Investigative                                                               Agency Operations
   Coverage of GSA Programs                                                              This period, in a series of internal reviews, the OIG
Audit and investigative coverage of GSA programs iden-                                   assisted management in addressing issues such as:
tified a number of opportunities for more efficient and
effective Agency operations.                                                                 •     Monitoring of fire and safety conditions in
                                                                                                   Federal buildings.
                                                                                             •     Improving billing procedures for accounts receiv-
Procurement Activities                                                                             able in the Information Technology Fund.
OIG coverage of procurement activities focused primar-                                       •     Recovering overpayments for janitorial services.
ily on preaward contract audits. We performed 251
preaward reviews of contracts with an estimated value                                        •     Strengthening controls over a regional personal
                                                                                                   property sales program.
of $1.1 billion.
                                                                                         In addition, an OIG investigation resulted in the convic-
This period, internal reports advised GSA managers of:
                                                                                         tion of a former manager of a State surplus property
  •    The need to cancel a proposed $14.2 million pur-                                  agency for theft of Government property. That individ-
       chase and renovation of a building.                                               ual illegally sold surplus items to private concerns.
  •    Potential recoveries totaling $390,000 from                                       Detailed information on these and other activities is
       guard service contractors.                                                        presented in Section III.
Significant OIG audits and investigations, and our work
with the Department of Justice, resulted in:
  •    The entering of a $5,586,887 civil judgment
                                                                                         B. Statistical
       against a partitions supplier who substituted
       inferior products to Government agencies.
                                                                                            Accomplishments
  •    A $2,500,000 civil fraud settlement agreement                                     The following table presents OIG accomplishments this
       with a copying equipment supplier.                                                period.


      Recommendations That Funds Be Put to Better Use .................................. .                          $100,420,990
      Questioned Costs ...................................................................................... ..      $5,379,878
      Management Decisions Agreeing With Recommendations That
        Funds Be Put to Better Use ...................................................................... .         $124,069,411
      Management Decisions Agreeing With Questioned Costs, Voluntary
        Recoveries, and Court-ordered and Investigative Recoveries ............... ..                                $13,991,216
      Audit Reports Issued .................................................................................. ..         434
      Implementation Reviews Completed .......................................................... .                       22
      Investigative Cases Opened ....................................................................... .               273
      Indictments and Informations ..................................................................... ..               18
      Successful Criminal Prosecutions ............................................................. ..                   21
      Civil Fraud Complaints ................................................................................ .             3
      Civil Settlements/Judgments ...................................................................... .                  6
      Contractor Suspensions/Debarments ......................................................... .                       35
      Employee Actions ....................................................................................... .          32
      Inspector General Subpoenas .................................................................... .                  26
      Legislative Initiatives Reviewed .................................................................. .              229
      Regulations and Directives Reviewed ....................................................... ..                     109
 c.    OIG Focus on Agency                                    is centered in this area. Working with our Office of
                                                              Counsel and Department of Justice officials, these mat-
       Operations                                             ters are pursued criminally or civilly as appropriate.
                                                              Our focus on procurement activities is resource inten-
                                                              sive and can target only a limited number of transac-
 GSA is often referred to as the Federal Government's
                                                              tions. Nevertheless, these efforts have borne fruit as
 business manager and landlord. With over $8 billion
                                                              evidenced by $100.4 million in recommendations that
 annually in procurements for goods and services, and
                                                              funds be put to better use and $5.4 million in ques-
 over 6,500 buildings to manage, this title is appropriate.
                                                              tioned costs; 174 subjects being referred for criminal,
 GSA's roles and responsibilities dictate that its opera-
                                                              civil, or administrative action; and fines, settlements,
 tions parallel those of commercial enterprises. And,
                                                              and restitutions amounting to over $9.8 million. We
 like private business, GSA is in the midst of a dynamic
                                                              are pleased with our results this period, but we know
 change spurred by competition and driven by customer
                                                              more can be done.
 demands for higher quality and lower priced goods and
 services. These demands have fostered innovation,            Our work in procurement transactions often leads us to
 product improvement, and technological advances, all         procedural matters which can reduce GSA's vulnerabili-
 to the betterment of the customer. The changes, how-         ty or improve operations. The review of operating pro-
 ever, have not reduced the vulnerabilities inherent in       grams and activities for purposes of improving internal
 the complex Government-wide procurement process.             controls, enhancing efficiency, or lowering costs con-
                                                              sume the remainder of our audit resources. In these
Recognizing these circumstances, the OIG has set our
                                                              areas, we made recommendations to strengthen pro-
focus on the procurement activities of the agency,
                                                              cesses, improve product quality and service delivery,
directing more than half of our audit resources to the
                                                              and enhance employee safety and welfare, but we know
review of procurement transactions. On the audit side
                                                              that opportunities for improvement remain.
much of our work is preventive in nature. We evaluate
contract proposals before they are final, seeking to assist   GSA managers are working to improve systems and
contracting officers to make the most informed and ben-       internal controls and clearly progress has been made.
eficial agreements possible. We also ask our auditors to      While this is positive, we are mindful that there remain
examine contract results to ensure that the Government        those who seek undue advantage, and regardless of the
received what it paid for, at the appropriate price.          strides made today, constant improvement is the key to
Adverse findings from these examinations are often the        progress. Our goal is to protect the interests of the tax-
basis of criminal investigations. Our investigations          payer. To this end, we are continually seeking methods
focus on "white collar" crime and contractor related          to improve the effectiveness and value of our services to
actions. Over 75 percent of the investigative workload        the agency and the nation.




ii
TABLE OF CONTENTS

                                                                           Page                                                                       Page

OVERVIEW ............................................................. .          SECTION IV-REVIEW OF LEGISLATION
                                                                                  AND REGULATIONS.............................................          10
REPORTING REQUIREMENTS ............................                          iv
SECTION I-ORGANIZATION,                                                              A. Legislation/Regulations Reviewed.... ...........                10
STAFFING, AND BUDGET....................................                      1      B. Significant Comments ..................................         10

   A. Organization.................... ........ ........ ...... ........      1   SECTION V-STATISTICAL SUMMARY
   B. Office Locations.............................................           1   OF OIG ACCOMPLISHMENTS ...........................                    12
   C. Staffing and Budget........................................             1      A. Overview of OIG Activities..........................            12
SECTION II-PROCUREMENT ACTIVITIES.....                                        2      B. Summary Statistics .......................................      12
   A. Overview of OIG Activity............................                    2   APPENDICES
   B. Significant Audits and Investigations..........                         2
   C. Significant Preaward Audits........................ .                   4   APPENDIX I-AUDIT
                                                                                  REPORT REGISTER...................... .............. ............     18
SECTION III-AGENCY OPERATIONS ..............                                  6
                                                                                  APPENDIX II-SIGNIFICANT AUDITS
   A. Overview of OIG Activity............................ .                  6   FROM PRIOR REPORTS. .................................. .....         43
   B. Significant Audits and Investigations ........ ..                       6
   C. Prevention Activities .................................. ..             9   APPENDIX III-DELINQUENT DEBTS...............                         46




                                                                                                                                                        111
REPORTING REQUIREMENTS
The table below cross-references the reporting require-                                in Senate Report No. 96-829 relative to the 1980
ments prescribed by the Inspector General Act of 1978,                                 Supplemental Appropriations and Rescission Bill is
as amended, to the specific pages where they are                                       also cross-referenced to the appropriate page of the
addressed. The information requested by the Congress                                   report.



                                                    Source                                                                                   Page


      Inspector General Act
        1. Section 4(a)(2) - Review of Legislation and Regulations .......................................... .                               10
        2. Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ............................ .                                    2,6
        3. Section 5(a)(2)    Recommendations With Respect to Significant
              Problems, Abuses, and Deficiencies ...................................................................... .                     2,6
        4. Section 5(a)(3) - Prior Recommendations Not Yet Implemented .............................. .                                       43
        5. Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................. .                                 15
        6. Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where Information
              Was Refused ...........................................................................................................   None This Period
        7. Section 5(a)(6) - List of Audit Reports ...................................................................... ..                  18
        8. Section 5(a)(7) - Summary of Each Particularly Significant Report.. ........................ .                                     2,6
        9. Section 5(a)(8) - Statistical Tables on Management Decisions on
              Questioned Costs ...,.................................................................................................          14
      10. Section 5(a)(9) - Statistical Tables on Management Decisions on
              Recommendations That Funds Be Put to Better Use ............................................ .                                  14
       11. Section 5(a)(1 0) - Summary of Each Audit Report Over 6 Months
              Old for Which No Management Decision Has Been Made .................................... .                                 None This Period
      12. Section 5(a)(11) - Description and Explanation for Any
              Significant Revised Management Decision ............................................................ .                    None This Period
      i 3. Section 5(a)(12) - information on Any Significant Management
              Decisions With Which the Inspector General Disagrees ........................................ .                           None This Period
      Senate Report No. 96-829
       1. Resolution of Audits ......................................................................................................         13
       2. Delinquent Debts ..........................................................................................................         46




iv
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET
Pursuant to the Inspector General Act of 1978, an Office           of Justice on litigation arising out of OIG activi-
of Inspector General (OIG) was established within the              ties.
General Services Administration (GSA) on October 1,
                                                               •   The Office of Administration, a centralized unit
1978. As currently configured, the OIG consists of four
                                                                   that oversees the development of OIG policies,
offices that function cooperatively to perform the mis-
                                                                   formulates OIG comments on proposed regula-
sions legislated by the Congress.
                                                                   tions and GSA policy issuances, provides data sys-
                                                                   tems support, and handles budgetary, admin-
                                                                   istrative, and personnel matters.
A. Organization
The OIG utilizes a functional organizational structure       B. Office Locations
to provide nationwide coverage of GSA programs and
activities. It consists of:
                                                             The OIG is headquartered in Washington, DC, at GSA's
   •   The Office of Audits, a multidisciplinary unit        Central Office building. Field audit and investigations
       staffed with financial and technical experts who      offices are maintained in: Boston, New York, Philadelphia,
       provide comprehensive coverage of GSA opera-          Atlanta, Chicago, Kansas City, Fort Worth, San Francisco,
       tions (internal or management audits) as well as      and Washington, DC. In addition, the Office of Audits has
       GSA contractors (external or contract audits).        a resident office in Auburn, Washington and the Office of
       Headquarters directs and coordinates the audit        Investigations has resident offices in Auburn, Cleveland,
       program, which is performed by the thirteen           and Los Angeles.
       field audit offices and one resident office.
   •   The Office of Investigations, an investigative
       unit that manages a nationwide program to pre-
       vent and detect illegal and/or improper activities
                                                             c.    Staffing and Budget
       involving GSA programs, personnel, and opera-
                                                             The OIG's approved Fiscal Year (FY) 1990 budget is
       tions. Operations officers at headquarters coor-
                                                             approximately $26.1 million. Some $13.7 million was
       dinate and oversee the investigative activity of
                                                             available for obligation during the first half of FY 1990.
       nine field investigations offices and three resi-
                                                             Funding reductions related to the Gramm-Rudman-
       dent offices.
                                                             Hollings deficit reduction act, along with the require-
   •    The Office of Counsel to the Inspector General,      ment to absorb the January 19903.6 percent pay raise,
        an in-house legal staff that provides opinions and   has caused the OIG to curtail staffing and ADP procure-
        advice on matters under Ole review. These            ments somewhat. The OIG is expecting to operate
        attorneys also manage the civil referral system,     with an on-board staff of approximately 412 for most of
        formulate OIG comments on existing and pro-          the year, a level well below that authorized; in addition,
        posed legislation, and work with the Department      planned ADP acquisitions will be slowed.




                                                                                                                          1
SECTION II-PROCUREMENT ACTIVITIES
The GSA is responsible for providing space for almost          procurement actiVitIeS. Significant preaward contract
1 million Federal employees. GSA, therefore, acquires          audits are presented in Section C.
buildings and sites, constructs facilities, and leases
space as well as contracts for repairs, alterations,
maintenance, and protection of Government-con-                 $14.2 Million Put to Better Use
trolled space. GSA also operates a Government-wide
service and supply system. To meet the needs of cus-           This period, the OIG continued to assess purchases
tomer agencies, GSA contracts for billions of dollars          being made under the Building Purchase Program,
worth of equipment, supplies, materials, and services          GSA's method for acquiring privately built facilities. As
each year.                                                     part of this effort, we evaluated the proposed purchase
                                                               of an office building. On December 20, 1989, GSA can-
                                                               celled the proposed agreement, resulting in almost
A. Overview of OIG Activity                                    $14.2 million in funds being put to better use, due to
                                                               the OIG disclosing that several serious flaws existed in
This period, OIG audit coverage of GSA's procurement           the proposed purchase.
activities primarily focused on contracting activities, par-
ticularly audits of multiple award schedule contracts.         $5.6 Million Civil Judgment
We issued 277 contract audit reports recommending that
$85 million in funds be put to better use and questioning      In October 1989, a U.S. District Court entered a
costs of $4.5 million. Notably, OIG audits of a contrac-       $5.6 million civil judgment for the United States
tor resulted in a $2.5 million civil settlement.               against a partitions supply firm. The court found that
In a series of internal audit reports issued this period,      the firm had defrauded the Government.
the OlG presented findings in such areas as building           A joint audit and investigation disclosed that the con-
purchases, lease and contract award and administration,        tractor falsified laboratory test results in order to obtain
repair and alteration projects, building construction,         its GSA contract. Independent laboratory tests confirmed
and maintenance contracts. Some of the more signifi-           that partitions sold to Federal agencies contained a
cant reviews advised management of the need to:                cheap, flammable cardboard filler, rather than the fire
    ..   Cancel a proposed $14.2 million agreement to          retardant material specified in the contract.
         purchase and renovate a building.                     Previously, the company and its president had been
    ..   Recover $390,000 from guard service contractors.      convicted of conspiracy, submitting false claims, and
                                                               preparing false statements. The company and its presi-
Joint OIG audit and investigative work resulted in a           dent were each fined $365,000. In addition, the presi-
civil judgment valued at $5,586,887 and a civil fraud          dent was sentenced to 9 years in prison (5 years
settlement valued at $850,000. The judgment resulted           suspendedl and 5 years probation. Both parties were
from OIG disclosure that a firm substituted inferior           also debarred from doing business with the
products for those contractually required. The settle-         Government for a 3-year period.
ment resulted from OIG findings that a firm violated
the defective pricing clauses in its GSA contracts.            Further civil action against the company president is
                                                               pending.
Notable OIG investigative cases included one investiga-
tion, conducted jointly with the Defense Criminal
Investigative Service, that resulted in the fraud convic-      $2.5 Million Civil Settlement
tion of the owner of a vacuum cleaner supply firm. The
owner billed the Government for products that it never         On December 29, 1989, a firm agreed to pay the
delivered.                                                     Government $2.5 million to settle potential civil fraud
Another investigation resulted in the conviction of a          liabilities. The firm, a major supplier of copying equip-
gas cylinder testing and servicing company owner and           ment and related supplies and services, refunded the
his son for conspiracy. The firm submitted falsified test      full amount to the Government at the time of settle-
                                                               ment.
documents to GSA.
                                                               OrG reviews disclosed that the firm sold items to its
                                                               commercial customers at discounts greater than those
B. Significant Audits and                                      offered to GSA. Failure to disclose these discounts dur-
                                                               ing contract negotiations violated the price
   Investigations                                              reduction/defective pricing clauses in its GSA con-
                                                               tracts. GSA contracting officials relied upon these data
This section summarizes significant internal and               when negotiating the contracts and, as a result, the firm
postaward audits and investigations dealing with GSA           secured inflated prices from Federal purchasers.


2
The matter was referred to the Department of Justice          Fraud Conviction
for civil litigation. The settlement agreement was
negotiated by representatives of the Department of
                                                              On March 29, 1990, the owner of a vacuum cleaner sup-
Justice Civil Division and the GSA OIG.
                                                              ply firm was sentenced in U. S. District Court after
                                                              being convicted of converting Government funds to his
Administration of Guard Service Contracts                     personal use and mail fraud. He was sentenced to 30
                                                              months in prison and 5 years probation and ordered to
This period, the OIG completed a regional review of the       make restitution in the amount of $70,690.
award and administration of guard service contracts.          The conviction stemmed from a joint orG and Defense
We found that improvements were needed over the               Criminal Investigative Service investigation. This
administration and management of the contracts. For           investigation was initiated after a GSA Quality
example, our review identified that the region routinely      Assurance Specialist alleged that the company was
waived contractor training requirements without seek-         billing the Government for products that were never
ing compensation from contractors. In one instance,           delivered to the ordering agency. The company had a
the value of the required training was built into the         GSA contract valued at almost $1 million to supply
negotiated contract price. By waiving the training, GSA       industrial-type vacuum cleaners and cleaning supplies
overpaid the contractor by approximately $88,000 for          to overseas locations.
required contractual services. In another instance, GSA
exercised an option on a contract based on the initial        The investigators found that the company was paid
year contract price. Since the initial year price included    through the Government's "fast payment" method for
cost elements mainly related to training not required in      overseas delivery that allows payment to the contractor
the option years, the cost for the two option years was       upon receipt of an invoice, prior to receiving any proof
overstated by $302,000.                                       that the product was actually received by the Govern-
                                                              ment. The company owner claimed that he did not
We also found that the contracting officer representa-
                                                              retain such records when asked to supply proof of ship-
tives did not provide contract guards with required ini-
                                                              ment. OIG special agents were able to build evidence
tial training. Further, the region did not always enforce
                                                              that the company owner billed GSA for supplies that
the requirements for written qualification examinations
                                                              were never shipped through use of vacuum cleaner seri-
every 3 years and annual firearm qualifications. GSA
                                                              al numbers provided by a former company employee.
therefore has no assurance that contract guards were
aware of current procedures or that client agencies are
being provided an acceptable level of protection.             Commercial Facilities Management
Our November 29, 1989 report directed 13 recommen-
dations to the Assistant Regional Administrator, Public       The Commercial Facilities Management (CFM)
Buildings Service. These included recommendations             Program, established in 1983, provides a vehicle for
that:                                                         GSA to contract with private sector firms for total
   •   The Contracts Division recover $390,000 related        buildings management services. These services, which
       to the waiving of required training in an initial      include maintenance, repair, custodial, and protection
       contract year and to payments made during two          services, were previously performed by GSA employees
       option years for costs that were applicable only       and/or multiple GSA contractors.
       to the initial contract year.                          This period, the orG completed an evaluation of a CFM
   •   The Contracts Division consider recovery on any        contractor's performance at a Federal facility. Our
       other open contracts where required training was       review concluded that, while customer agencies were
       waived or where contract prices in option years        generally satisfied with contractor performance, actions
       included payment for costs not required or per-        needed to be taken to improve the effectiveness of the
       formed in the option years.                            CFM program. For example, we found that the contrac-
                                                              tor was assessed utility taxes and energy conservation
   •   The Contracts Division establish policy and proce-     surcharges from which the Government would be
       dures to obtain compensation from contractors for      exempt if GSA paid the utility bills. We estimated that
       training waivers granted in the future and to ensure   the contractor's additional cost for utilities, which are
       that option year pricing does not include expenses     then passed on to the Government, exceed $156,000 per
       applicable only to the initial contract year.          year. Further, during the first year of the contract, elec-
   •   The Federal Protective Service Division ensure         tricity costs for the facility rose over 46 percent above
       that contracting officer representatives provide       the average costs during the prior 4 years when GSA
       and document required initial training and             was responsible for facilities management. We attribut-
       require scheduling of written qualification exam-      ed this sharp rise to a lack of effective energy conserva-
       inations and firearm qualifications.                   tion measures by the contractor.
The Regional Administrator provided responsive action         We also found that GSA did not properly prepare the
plans for implementing the report recommendations. A          deficiency report that identified required repairs at
management decision was achieved on March 8, 1990.            the start of the contract period. As a result, many


                                                                                                                       3
deficiencies remained unresolved for an extended peri-         company's inventory and later leased to other cus-
od and the Government's cost to accomplish the                 tomers.
repairs may be escalated due to the delays. In addition,
we believe that better monitoring and coordination of
the contractor's work performance is needed to ensure          $850,000 Civil Settlement
that client agencies receive quality service and that the
contractor complies with specific contract require-            In December 1989, a computer and data processing
ments.                                                         equipment supplier agreed to pay the Government
                                                               $850,000 to settle its potential civil liability. The firm
The November 16, 1989 audit report addressed 15 rec-           has already refunded $250,000 to the Government. The
ommendations to the Assistant Regional Administrator,          remaining $600,000, plus interest, will be paid in two
Public Buildings Service, to correct identified deficien-      installments over the next 18 months.
cies. These included recommendations that:
                                                               A joint audit and investigation found that the firm
    ..   Future CFM contracts provide for GSA to pay           failed to provide accurate and complete pricing data to
         utility bills, then receive payment from the con-     GSA contracting officials. The firm did not fully dis-
         tractors for the amounts paid by GSA on their         close the extent of discounts offered to commercial cus-
         behalf.                                               tomers. GSA relied upon these data in negotiating
    ..   The need to operate electrical equipment as effi-     contracts between 1983 and 1986.
         ciently as possible be reaffirmed.                    The matter was referred to the Department of Justice,
    ..   Deficiency reports be initiated in a timely fash-     which declined criminal prosecution, but accepted the
         ion, and follow-up be initiated to ensure that cor-   case for civil litigation. The settlement agreement was
         rective action has been taken.                        negotiated by representatives of the Department of
                                                               Justice Civil Division and the GSA OIG. Debarment
    ..   Field office managers be instructed to effectively    action is under consideration.
         monitor all aspects of CFM contractor perfor-
         mance.
The Regional Administrator provided responsive action
plans for implementing the report recommendations. A
management decision was achieved on March 1, 1990.
                                                               c.    Significant Preaward
                                                                     Audits
Conspiracy Convictions
On February 26, 1990, the owner of a gas cylinder test-        The OIG's preaward audit program provides informa-
ing and servicing firm was sentenced in U. S. District         tion to contracting officers for use in negotiating con-
Court after being convicted of conspiracy, making false        tracts. The pre-decisional, advisory nature of preaward
statements, and submitting false claims. He was sen-           audits distinguishes them from other audits. This peri-
tenced to 28 months in prison, to be followed by               od, the OIG performed preaward audits of 251 con-
36 months of supervised release, fined $43,350, and            tracts with an estimated value of $1.1 billion. The
ordered to make restitution of $5,400. On February 9,          audit reports contained $86 million in financial recom-
1990, the owner's son had been sentenced to 8 months           mendations.
in prison, followed by 36 months of supervised release,
and fined $3,650 for his part in the conspiracy. In addi-      Multiple Award Schedule Contracts
tion, the firm was fined $10,400.
The convictions resulted from a joint GSA OIG and FBI          The OIG performed four significant audits involving
investigation initiated after several former company           multiple award schedule contracts. Total estimated
employees alleged that the firm billed the Government          Government-wide sales under these contracts were
for work not performed. The investigation disclosed            $74.8 million.
that the company owner and his son directed employ-
                                                               The OIG evaluated discount schedule and marketing
ees to stamp hydrostatic test dates on Government gas
                                                               data submitted in response to three GSA solicitations:
cylinders that had not been tested. They then falsely
                                                               one for radio navigation and communications security
certified to the Government that the cylinders had been
                                                               equipment; one for ADP software and maintenance; and
tested. The Government relied upon these certifica-
                                                               the other for spectrophotometers, spectrometers, and
tions to enSllre that the cylinders, including oxygen
                                                               related accessories. The first audit report advised the
cylinders used by firefighters, pilots, and hospital staff,    contracting officer that discounts being offered to GSA
were safe and operational.
                                                               were substantially lower than those granted the
The investigation also disclosed that the firm stole           Government under its current contract with the same
Government cylinders by substituting defective cylin-          firm, even though the Government remains as one of
ders obtained from commercial sources for opera-               the firm's largest customers. Further, commercial and
tional Government-owned cylinders. The stolen                  public service customers were offered discounts that
Government-owned cylinders were then placed in the             exceeded those disclosed and offered to GSA. The


4
second report advised the contracting officer that the          of a Federal building. The contractor alleged that
contractor offered higher discounts to commercial cus-          change orders, other Government actions, and
tomers than were disclosed in the firm's offer to GSA.          differing site conditions extended the contract
Both of these reports also advised that several of the          work period, resulting in increased costs. The
offered products did not meet the test of commerciality.        audit report advised the contracting officer that
The third report advised the contracting officer that           costs contained in the claim were overstated or
commercial customers were offered discounts in return           unallowable, and recommended an adjustment
for making their sites available for demonstrations of          of $4.7 million to the claimed amount. Most of
the purchased equipment to prospective buyers. We               the adjustment was in the following categories:
found that these sites were rarely, if ever, used for           extended jobsite overhead, unabsorbed home
demonstration purposes. We also advised that trade-in           office overhead, late payments, and subcontrac-
discounts were offered as pricing concessions to com-           tor costs.
mercial customers, but not to GSA. Based on these find-
                                                            •   The OIG audited a claim for increased costs
ings, the auditors recommended that contract prices be
                                                                related to powerhouse modifications at a Federal
reduced by $7.1 million, $2.3 million, and $2.2 million,
                                                                facility. The contractor alleged that Government-
respectively.
                                                                caused delays resulted in increased costs for boiler
The OIG also evaluated a cost or pricing proposal sub-          work. The audit report advised the contracting
mitted in response to a GSA solicitation for time man-          officer that costs contained in the claim were
agement systems. The audit report advised the                   overstated, unallowable, or unsupported, primari-
contracting officer that the cost or pricing data con-          ly in the following categories: direct labor, equip-
tained in the firm's proposal were unallowable, princi-         ment costs, support costs and services, overhead,
pally in the following categories: salary/bonus costs,          subcontractor costs, and profit. Based on these
consultant fees, and maintenance expenses. Based on             findings, along with GSA technical evaluations,
these findings, the auditors recommended that contract          we recommended an adjustment totaling
prices be reduced by $1.9 million.                              $3.6 million to the claimed amount.
                                                            •   The OIG audited a claim for increased costs
                                                                related to the expansion of a Federal facility.
Other Contracts                                                 The contractor alleged that change orders result-
                                                                ed in increased costs for electrical work. The
The OIG performed three significant audits involving            audit report advised the contracting officer that
three claims for increased costs. Details on the three          costs contained in the claim were overstated or
audits, with a total audited value of over $13.6 million,       unsupported, primarily in the following cate-
are as follows:                                                 gories: craft labor inefficiency, wage escalation,
                                                                supervision labor, equipment, home office over-
  •    At the request of an Assistant Regional                  head, and profit. Based on these findings, along
       Administrator, Public Buildings Service, the OIG         with GSA technical evaluations, we recom-
       audited a claim for increased costs due to               mended an adjustment totaling $1.1 million to
       Government-caused delays on the construction             the claimed amount.




                                                                                                                  5
SECTION III-AGENCY OPERATIONS
The General Services Administration (GSA) is a cen-          continuous monitoring of fire safety conditions in GSA-
tral management agency that sets Federal policy in           controlled buildings, the regional Safety and
such areas as Federal procurement, real property man-        Environmental Management (SEM) branches conduct
agement, and telecommunications. GSA also manages            comprehensive fire safety reviews every 4 years, while
diversified Government operations involving buildings        buildings management field office managers are
management, supply facilities, real and personal prop-       required to perform less comprehensive annual reviews.
erty disposals and sales, data processing, and motor
                                                             This period, OIG evaluations at eight Federal facilities,
vehicle and travel management. In addition, GSA
                                                             located in four GSA regions, disclosed that improve-
manages over 115 accounting funds as well as provides
                                                             ments are needed in the monitoring of fire safety condi-
cross-servicing support for client agencies.
                                                             tions. These reviews identified nonconforming fire
                                                             safety conditions that had not been identified in the
                                                             most recent SEM fire safety inspections. We also found
A. Overview of OIG Activity                                  that nonconforming conditions identified by the SEM
                                                             inspections still needed effective corrective action, even
                                                             though field office personnel had reported them as
This period, OIG internal management reviews present-
                                                             being corrected. Finally, we found that the required
ed findings relative to fire and safety concerns, build-
                                                             annual field office managers' inspections were either
ings management, supply center operations, donated
                                                             not performed or did not identify existing nonconform-
property, travel centers, computer security, fleet man-
                                                             ing fire safety conditions. We believe that effective
agement centers, billing procedures, and accounts
                                                             monitoring of fire safety conditions is necessary to
receivable operations. Some of the more significant          ensure a safe environment for Federal employees.
reviews assisted management in taking action relative
to:                                                          In a series of reports issued during the 6-month period,
                                                             we recommended specific actions to correct identified
    •   Effective monitoring of fire and safety conditions   deficiencies. These included recommendations that the
        at Federal facilities.                               cognizant Assistant Regional Administrator, Public
    •   Strengthening billing procedures and revising        Buildings Service, ensure that:
        computer programs utilized for accounts receiv-
        able in the Information Technology Fund.                •   SEM branch personnel devote sufficient time on
                                                                    future fire safety inspections to identify noncon-
    •   Recovering overpayments for janitorial services             forming fire safety conditions and that supervi-
        from contractors and establishing accountability            sory reviews of recently completed inspections
        for equipment at a buildings management field               are conducted and documented.
        office.
                                                                •   Field office managers take appropriate actions to
    •   Improving controls over a regional Personal                 have nonconforming fire safety conditions iden-
        Property Sales Program.                                     tified by SEM inspections corrected.
An OIG investigation into irregularities involving a            •   Field office managers perform required annual
state agency that obtained surplus personal property                fire safety inspections.
through the GSA Donated Property Program resulted in
the agency manager being convicted of theft of               The Regional Administrators provided responsive
Government property. The investigators determined            action plans for implementing report recommendations,
that the manager illegally sold surplus Federal property     and management decisions were achieved for four of
to private businesses.                                       the reports. We are awaiting management decisions on
                                                             the recommendations in the other four reports.

B. Significant Audits and                                    Controls Over Accounts Receivable
   Investigations                                            An OIG review of accounts receivable in the
                                                             Information Technology Fund disclosed that controls
This section summarizes significant internal audits          over the financial systems and operations used for
and investigations dealing with GSA operations.              billing and collecting accounts receivable needed
                                                             improvement. The review identified significant prob-
Fire Safety                                                  lems with both billing procedures and computer pro-
                                                             grams.
GSA's fire safety program was established to ensure a        We found that computer generated billing documents
safe environment for Federal employees and to protect        were not clearly identifiable as invoices and did not ade-
Government property from damage. To provide                  quately identify billed services. Customers must


6
retrieve previously furnished contractor documents in        subsequently, our investigators uncovered a fraud
order to ascertain what services they are being billed for   scheme, involving the sale of surplus property to com-
by GSA and also have to add several of these documents       mercial entities, directed by the manager over a 2-year
to match the billed amount on the official GSA invoice.      period. The surplus property, with an original acquisi-
Further compounding the customers efforts to deter-          tion cost of almost $620,000, included machine shop
mine what to pay, a GSA client receives three distinct       equipment, boat propellers, and scrap metal.
billing documents from three separate sources. First,
                                                             The investigators utilized information provided by
the contractor sends the customer an informational
                                                             informants and key witnesses to document the extent
copy of the invoice sent to GSA for payment, then
                                                             of the fraud scheme. They found that the manager sold
GSA's Information Resources Management Service
                                                             the property to businesses who were unaware of the
sends another copy of the same document to the cus-
                                                             source of the property and of the illegality of purchasing
tomer, and, finally, GSA's Accounts Receivable Branch
                                                             such property. In order to conceal these sales, the man-
sends out the official invoice. As a result, customers
                                                             ager substituted items of lesser value into the surplus
may become confused, resulting in delayed payments to
                                                             property inventory. The substitute items were then
GSA and increased administrative costs for both GSA
                                                             sold at public auctions and the manager falsely certified
and the customer. Customers have been found to have
                                                             to GSA that he had actually sold the higher-value prop-
remitted payments directly to the contractor or else to
                                                             erty originally obtained from GSA. The manager made
GSA before the official invoice has been prepared and
                                                             a personal profit of nearly $100,000 through his illegal
an account receivable set up. When this occurs, GSA
                                                             activities.
must collect the payments made to the contractor or
establish a credit account for the customer payment.         After the State was informed of the manager's activi-
                                                             ties, he was fired. Debarment action against this indi-
We also found that the computer generated trial balance
                                                             vidual is pending.
for accounts receivable differed from the Accounts
Receivable Aged Subsidiary ledger by $1.6 million. The
trial balance indicated that GSA owed customers              Improving Field Office Operations
$.5 million when customers actually owed $1.1 million
to the Government. Management cannot, therefore,
                                                             As part of the OIG's plan to provide recurring assess-
rely on the trial balance as a source for determining        ments of individual buildings management field offices,
receivable balances.                                         we evaluated the operations of six field offices in three
The October 27, 1989 report directed five recommenda-        GSA regions. Our reviews generally concluded that
tions to the Comptroller and one recommendation to           field offices were operating in compliance with pre-
the Commissioner, Information Resources Manage-              scribed procedures, except for some minor procedural
ment Service, to correct identified deficiencies. These      problems. However, one review disclosed that the field
included recommendations that:                               office needed to strengthen controls and procedures in
                                                             several operating and administrative areas.
  •    GSA billing documents be clearly identified as
       invoices and contain, or have attached, the quan-     The review found, for example, that procurement defi-
       tity, price, terms, and other particulars of goods    ciencies were not being detected, resulting in overpay-
       or services rendered.                                 ments to janitorial services contractors. In one
                                                             instance, the field office did not modify a contract to
  •    Contracting documents be modified to restrict         reflect a reduction in space, even though a contract
       contractors from providing documents contain-         clause provided for a reduced monthly payment. In
       ing the words "invoice" or "bill" to GSA cus-         another instance, the field office continued to pay a
       tomers.                                               contractor the old contract rate after exercising a con-
  •    Financial computer programs be revised to             tract extension option that provided for a reduced pay-
       reflect accurate account balances.                    ment.
The OIG was provided responsive action plans for             We also found that the field office was not accounting
implementing the report recommendations. A manage-           for or controlling administrative and operating equip-
ment decision was achieved on March 26, 1990.                ment. Equipment stored at the site could not be traced
                                                             to inventory records nor could the auditors determine
                                                             the actual ownership of the equipment. As a result,
Theft of Federal Surplus Property                            this equipment is susceptible to unauthorized use and
                                                             theft. Finally, we found that field office files were dis()f-
On January 16, 1990, a former manager of a State             ganized and contained misfilings. We believe that this
Agency for Surplus Property pled guilty to theft of          disorganization may have contributed to the deficien-
Government property and mail fraud. Sentencing is            cies previously identified.
scheduled for May 1990.
                                                             The January 23, 1990 report directed 15 recommenda-
The conviction resulted from OIG reviews that were           tions to the Regional Administrator, including recom-
initiated after receipt of anonymous allegations that the    mendations to ensure that:
manager was illegally selling surplus personal property
obtained through the GSA Donated Property Program.             •    Overpayments for janitorial services are recov-
We found inventory shortages at the State agency and,               ered and adequate management controls are


                                                                                                                         7
        established for the administration of building          •    Financial reconciliations be performed to assure
        service contracts.                                           that amounts collected are properly controlled
                                                                     and matched with deposits, and that refunds
    •   A physical inventory of all administrative equip-            requested are matched with refunds processed.
        ment in the custody of the field office is con-
        ducted and an accountability officer is appointed     The Regional Administrator generally concurred with
        to identify and prepare inventory records for this    the conclusions reached in the draft report. We are
        equipment.                                            awaiting management decisions on the recommenda-
                                                              tions in the report.
    •   Administrative and contract files are maintained
        in accordance with established procedures.
The Regional Administrator agreed with the recom-             Distribution Center
mendations in the draft report. We are awaiting man-
agement decisions on these recommendations.                   This period, the OIG completed several reviews at a
                                                              GSA distribution center. These reviews identified that
                                                              enhancements are needed in the shelf-life program,
Personal Property Sales                                       stock locator records, and security over sensitive items.
                                                              While the distribution center has generally implement-
The Personal Property Sales Program is GSA's vehicle
                                                              ed the shelf-life program in compliance with GSA pro-
for disposing of excess Government-owned personal
                                                              cedures, we found that opportunities to improve
property, such as vehicles, office equipment, furniture,
                                                              program operations exist. For example, the shelf-life
etc. The Sales Section, Federal Supply Service, in each
                                                              surveillance file was not tested monthly. Further, cen-
region is responsible for the selling of personal property,
                                                              ter personnel did not always select the oldest available
the collection and deposit of sales proceeds, and default-
                                                              stock for shipment. Both of these conditions increase
ing uncollectible contracts.
                                                              the possibility of loss from spoilage. In addition, incor-
This period, the OIG completed an evaluation of one           rect locator information, used to determine when dete-
GSA region's personal property sales program. The             riorative stock is to be reinspected, could lead to
review concluded that improved controls were neces-           premature or late reinspections. As a result, delays in
sary to properly account for all personal property and        shipment or shipment of deteriorated stock could occur,
assure deposit of all sales proceeds.                         creating customer dissatisfaction.
We found minimal separation of duties, disorganized           We also found that the center did not fully comply
files that did not contain full documentation, inade-         with procedures designed to ensure accuracy in inven-
quate supervisory review, noncompliance with estab-           tory and locator records. The locator file was not
lished procedures, and nonperformance of re-                  updated for stock location changes and monthly accu-
conciliations. As a result, the region could not be sure      racy tests were not performed during a (i-month period.
that all property available for sale was included in the      Without accurate locator records, materials are diffi-
sales inventory; all sales awards and selling prices were     cult to find and warehouse refusals of customer
correctly recorded; all proceeds were deposited; and          requests may occur.
sales adjustments, customer refunds, canceled awards,
                                                              Finally, we found that internal controls over the securi-
and default collections were properly approved and doc-
                                                              ty of sensitive items needed strengthening. Presently,
umented. In addition, we identified delays of up to 47
                                                              access to the security cage where sensitive items are
days in depositing sales proceeds.
                                                              stored is not restricted to employees working with the
The March 23, 1990 report directed 27 recommenda-             sensitive item inventory. In addition, 32 non-sensitive
tions to the Assistant Regional Administrator, Federal        items are stored in the security cage and keys to the
Supply Service, to correct these and other identified         cage are kept in a metal desk drawer in an adjacent
deficiencies. These included recommendations that:            warehouse, rather than in a safe.
    •   Written procedures emphasizing the importance         In three reports dated November 3, 1989, December 5,
        of internal controls and establishing separation      1989, and January 9, 1990, we addressed 12 recommen-
        of duties and supervisory reviews be issued to        dations to the Assistant Regional Administrator,
        the sales section.                                    Federal Supply Service, including recommendations
                                                              that:
    •   Documents reporting property available for sale
        be logged in and controlled to increase assurance       •    Distribution center management ensure that the
        that all property reported is entered into the               shelf-life surveillance file is tested monthly, and
        inventory control records.                                   that selectors are instructed regarding shelf-life
                                                                     concerns and the need to select the oldest avail-
    •   Sales files be better organized and include: a copy          able stock for issuance.
        of bank guaranty letters for noncertified checks, a
        copy of checks deposited in the remittance regis-        •   Warehouse workers submit stock location
        ter files, documentation to clearly account for all          changes in a timely fashion and conduct a full
        property, and a memorandum approved by the                   screening within 30 days if thc locator error rate
        Sales Section Chief to close out the file.                   exceeds five percent for a month.


8
  •   The key to the security cage be stored in a safe or       on how real estate taxes will be prorated; inadequate
      in a filing cabinet with a steel locking bar and          support for proposed overtime rate; and ambiguous
      that access to the cage be limited to the least           lease clauses.
      number of employees possible.
The Regional Administrator provided responsive action           Integrity Awareness
plans for implementing the recommendations in the
November 3, and December 5, 1989 reports.                       Integrity Awareness Briefings comprise the OIG's pri-
Management decisions were achieved on March 6, and              mary vehicle for educating employees on their responsi-
March 26, 1990, respectively. We are awaiting a man-            bilities on the prevention of fraud and abuse. These
agement decision on the recommendations in the other            briefings explain the statutory mission of the OIG and
report.                                                         the methods available for reporting suspected instances
                                                                of wrongdoing. In addition, through case studies and
                                                                slides, the briefings expose GSA employees to actual
c.    Prevention Activities                                     instances of white collar crime in GSA and other
                                                                Federal agencies. This period, we presented 10 briefings
                                                                which were attended by 313 Central Office and regional
In addition to detecting problems in GSA operations,            employees.
the OIG is responsible for initiating actions to prevent
fraud, waste, and abuse and to promote economy and              Hotline
efficiency. This section details these OIG activities.
                                                                A free flow of communications between GSA employ-
Advisory Lease Reviews                                          ees and the OIG is a vital part of our prevention pro-
                                                                gram. The OIG has found that the Hotline provides an
The OIG's program for reviewing leases prior to award           effective method for employees to report suspected
provides front-end assurance that GSA is adhering to            wrongdoing. Hotline posters located in GSA-controlled
regulations and procedures before awarding selected             buildings as well as Hotline brochures encourage
leases involving annual rentals in excess of $200,000.          employees to use the Hotline. Also, the OIG periodical-
The reviews, although advisory in nature, promote               ly distributes brochures to each branch level within
opportunities for economy and efficiency in the leasing         GSA to ensure that employees arc aware of the success-
area.                                                           ful outcomes resulting from their information.
The program achieved the following results during the           During this reporting period, we received 44 Hotline
reporting period:                                               calls and letters. Of these, 39 complaints warranted
                                                                further action. We also received 2 referrals from GAO
  Lease proposals submitted for review............ 121
                                                                and 9 referrals from other agencies; all of these referrals
  Lease proposals reviewed................................ 43
                                                                required further action.
  Lease proposals with deficiencies .................. 27
  Lease proposals with no deficiencies.............        16
Major deficiencies identified through OIG advisory              Implementation Reviews
lease reviews related to: proposed annual rental that
exceeded the Congressional intent of a reasonable annu-         The OIG performs independent reviews of implementa-
al rental amounti lease terms did not contain a plan for        tion actions, on a test basis, to ensure that corrective
removal of asbestos from a buildingi exclusion of some          prevention actions are being accomplished according to
offerors was not justifiedi competition may have been           established milestones. This period, the OIG performed
restricted by the limited time allowed offerors to sub-         22 implementation reviews. In 16 of these cases, man-
mit best and final offersi and lease payment provisions         agement was successfully implementing the recommen-
may violate Federal statute. Other deficiencies includ-         dations. In the other 6 instances, recommendations
ed: no justification for not having a renewal option;           were not being implemented in accordance with the
incomplete lease files; possible duplication of payments        established action plans; we advised management of the
for electricity; no fire and safety review; no statement        need to revise the action plans.




                                                                                                                         9
SECTION IV-REVIEW OF LEGISLATION AND
REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978                   General transmit reports of serious or flagrant
requires the OIG to review existing and proposed legis-                problems directly to Congress in those instances
lation and regulations relating to GSA programs and                    where the head of an agency does not comply
operations. To fulfill this legislated responsibility, the             with his/her reporting requirements. The
OIG maintains a clearance system that ensures OIG                      Inspector General Act requires immediate IG
review of all proposed legislation, regulations, and                   reporting of serious or flagrant problems to the
internal directives affecting any aspect of GSA opera-                 head of the agency, who then is required to trans-
tions.                                                                 mit this report to Congress within 7 days. The
                                                                       new requirement specifies that the IG will send
                                                                       the report directly to the appropriate
                                                                       Congressional committee within 5 days of the
A. Legislation/Regulations                                             expiration of the original 7 days when the head of
   Reviewed                                                            the agency refused or failed to transmit the
                                                                       report. Although we have no knowledge of an
                                                                       agency head not transmitting such a report, we
During this period, the OIG reviewed 229 legislative                   believe that this requirement would ensure that
matters and 109 proposed regulations and directives.                   the report finds its way to Congress. We did not
                                                                       support the provision under which Inspectors
                                                                       General would be appointed to 10 year terms,
                                                                       removable only by the President with cause,
B. Significant Comments                                                since we believe that further study of the need
                                                                       for, and the advantages and disadvantages of, the
                                                                       proposed changes is necessary before they are
The OIG provided significant comments on the follow-
                                                                       adopted. We noted that our experience has been
ing legislation, regulations, orders, and directives:
                                                                       that the organizational structure established by
     ..   Draft Bill No. 57, Federal Courts Improvement                the Inspector General Act of 1978 works quite
          Act and Contract Disputes Act Amendments of                  well. In addition, we suggested clarification of
          1989. We supported this bill since it would                  the requirement that the head of an agency pro-
          resolve many legal issues arising from differing             vide Congress with a report on any recommenda-
          interpretations of the False Claims Act and the              tions in reports required by the IG Act, since we
          Contract Disputes Act. We strongly supported                 feel that the intent of the Congress is not clear.
          the following proposed changes: (1) Title I,
                                                                  ..   S. 2080, the Office of Inspector General Law
          Section 106 clarifies the definition of "knowl-
                                                                       Enforcement Act of 1990. We supported this bill
          edge" in proving fraud under 28 U.S.c. 2514
                                                                       that would give law enforcement authorities to
          (Forfeiture of Fraudulent Claims) by making
                                                                       all Inspectors General. We especially supported
          either actual or constructive knowledge suffi-
                                                                       the provisions allowing each Inspector General
          cient to prove a violation; (2) Title II, Section 201
                                                                       to determine the degree of law enforcement
          amends the definition of "misrepresentation of
                                                                       authority appropriate for his or her organization.
          fact" under the Contract Disputes Act so that it
                                                                       We commented that this bill would help ensure
          conforms with the standards and requirements
                                                                       the independence of the Offices of Inspector
          of the False Claims Act; and (3) Title II, Section
                                                                       General.
          202(3) adds a new subsection to 41 U.S.c. 604
          that allows the Attorney General or his delegate        ..   OAD P 5410.1, Clearance Procedures for
          to obtain a suspension of proceedings before any             Employees Separating From or Transferring
          agency board in appeals involving a claim, con-              Within GSA. We commented that clearance offi-
          tract, or dispute on which a fraud investigation is          cials are not in position to reasonably determine
          being conducted.                                             the fair market value of missing equipment
                                                                       when property issued to an employee cannot be
     ..   H. R. 3377, the Federal Assistance Procedures
                                                                       accounted for. We suggested that, for those
          Reform Act of 1989. We strongly supported the
                                                                       items not accounted for, the clearance official
          subsection of this bill that would give Inspectors
                                                                       should include any information pertinent to the
          General authority to compel testimony as well as
                                                                       condition or value of the property, or the amount
          documents (testimonial subpoena authority). We
                                                                       of indebtedness.
          noted that this provision is a needed addition to
          IG authority that would greatly enhance our abil-       ..   FSS Acquisition Letter, Responsibility for
          ity to carry out our responsibilities. We generally          Contract Files. We disagreed with the proposed
          supported the new requirement that Inspectors                requirement that Commodity Center division

10
directors establish review thresholds for multiple   on contracts with minimal dollar value. We,
award schedule contracts above which divisional      therefore, suggested that representative samples
reviews would be performed, but below levels         of contracts at all dollar levels be reviewed with-
reviewed by other contract assurance offices. We     in the Commodity Center division, and that
stated that our experience has shown that the        review coverage be extended to as many con-
most significant contracting problems occurred       tracting officials as possible.




                                                                                                           11
SECTION V-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS
The previous sections of this report presented OIG
activity and accomplishments by subject area. In the     B. Summary Statistics
pages that follow, overall OIG accomplishments are
comprehensively reported.                                1. Audit Reports Issued

                                                         The orc issued 434 audit reports, including 2 audits
A. Overview of OIG Activity                              performed by the orG that were issued to other agen-
                                                         cies and 8 audits performed for the orG by another
                                                         agency. The 434 reports contained financial recommen-
During the reporting period, the orc pursued 1,536
                                                         dations totaling $105,800,868, including $100,420,990
audit and investigative assignments. This activity
                                                         in recommendations that funds be put to better use and
resulted in the issuance of 434 audit reports and the
                                                         $5,379,878 in questioned costs. Due to GSA's mission
referral of 174 investigative findings to prosecutive
                                                         of procuring supplies and services for the Government,
authorities or GSA management.
                                                         much of the recommendations that funds be put to bet-
The following subsection presents information on these   ter use was applicable to funds other agencies would
and other quantifiable accomplishments.                  expend under GSA's Government-wide contracts.




12
2.    Management Decisions on Audit                                             but all of them were preaward audits, which are not
                                                                                subject to the 6-month management decision require-
      Reports                                                                   ment. Thus, no reports were actually overdue-a statis-
                                                                                tic that reflects creditably on GSA's management
                                                                                decision process.
 Table 1 summarizes the status of the universe of audits                        It should be noted that Table 1 does not include: the
requiring management decisions during this period, as                           2 reports issued to other agencies this period and the
well as the status of those audits as of March 31, 1990.                        60 reports (5 issued this period) excluded from the man-
Twenty-nine reports more than 6 months old were                                 agement decision process because they pertain to on
awaiting management decisions as of March 31, 1990;                             going investigations.




                                       Table 1. Management Decisions on OIG Audits
                                                                                           Reports With                Total
                                                                              No. of        Financial                Financial
                                                                             Reports     Recommendations         Recommendations

     For which no management decision
       had been made as of 10/1/89 ...................... .
       - Less than 6 months old ........................... .                 175                122                 $ 92,496,818
       - More than 6 months old .......................... .                   42                 36                   28,503,821
     Reports issued this period ............................... .             427                231                  102,539,036

     TOTAL ............................................................. .    644                389                 $223,539,675

     For which a management decision
       was made during the reporting period
       - Issued prior periods ................................ .              188                130                 $106,850,940
       - Issued current period .............................. .               245                103                   37,738,491

     TOTAL ............................................................. .    433                233                 $144,589,431

     For which no management decision
       had been made as of 3/31/90
       - Less than 6 months old ........................... .                  182               128                 $ 64,800,545
       - More than 6 months old .......................... .                    29                28                   14,149,699

     TOTAL ............................................................. .     211               156                 $ 78,950,244




3.    Management Decisions on Audit                                              Tables 2 and 3 present the audits identified in Table 1 as
                                                                                 containing financial recommendations by category
      Reports With Financial                                                     (funds to be put to better use or questioned costs). Some
      Recommendations                                                            of the reports contained recommendations that funds be
                                                                                 put to better use as wellas questioned costs, and these
                                                                                 reports are therefore included in both Tables 2 and 3.




                                                                                                                                        13
                                    Table 2. Mangement Decisions on OIG Audits With
                                    Recommendations That Funds Be Put to Better Use
                                                                                                           No. of                Financial
                                                                                                          Reports            Recommendations

     For which no management decision
       had been made as of 10/1/89
       - Less than 6 months old ....................................................... .                  103                 $ 88,315,038
       - More than 6 months old ...................................................... .                    31                   27,023,997
     Reports issued this period .......................................................... ..              204                  100,116,769

     TOTAL .......................................................................................... .    338                 $ 215,455,804

     For which a management decision was
       made during the reporting period
       - Recommendations agreed to by
          management based on proposed
          - management action ........................................................ .                                       $124,069,141
          - legislative action ............................................................. .
       - Recommendations not agreed to
          by management .................................................................. .                                     15,741,620

     TOTAL. ......................................................................................... .    201                 $139,810,761 *

     For which no management decision
       had been made as of 3/31/90
       - Less than 6 months old ...................................................... ..                  110                 $ 63,233,045
       - More than 6 months old ...................................................... .                    27                   14,145,697

     TOTAL. ........................................................................................ ..    137                 $ 77,378,742

      * Includes $1,733,699 that management decided to seek that exceeded recommended amounts.




                                                    Table 3. Management Decisions on
                                                     OIG Audits With Questioned Costs
                                                                                       No. of              Questioned            Unsupported
                                                                                     Reports                 Costs                  Costs

     For which no management decision
       had been made as of 10/1/89
       - Less than 6 months old ................................ .                        20               $4,181,780                $
       - More than 6 months old ................................ .                         6                1,479,824
     Reports issued this period .................................... .                    37                2,422,267

     TOTAL ................................................................... .          63               $8,083,871                $


     For which a management decision was
       made during the reporting period
       - Disallowed costs .......................................... ..                                    $5,768,388 *              $
       - Costs not disallowed .................................... .                                          814,933

     TOTAL ................................................................... .          36               $6,583,321   .*           $

     For which no management decision
       had been made as of 3/31/90
       - Less than 6 months old ................................ .                        26               $1,567,500               $
       - More than 6 months old ................................ .                          1                   4,002

     TOTAL. ................................................................. ..          27               $1,571,502               $

       * Includes $3,350,000 also reported under Monetary Results .
       •• Includes $70,952 that management decided to seek that exceeded ecommended amounts.


14
4. Investigative Workload                                                                       138 complaints/allegations the OIG received and eval-
                                                                                                uated from sources other than the Hotline that
                                                                                                involved GSA employees and programs. Based upon
Table 4 presents detailed information on investiga-                                             analyses of these allegations, OIG investigations were
tive workload by case category. The Table includes the                                          not warranted.




                                                          Table 4. Investigative Workload
                Case                                                                           Cases Open      Cases         Cases           Cases Open
               Category                                                                          10/1/89      Opened         Closed            3131/90

      White Collar Crimes................ ......................................                  267           114            142               239
      Other Crimes Involving GSA Operations........ ..............                                 49            48             57                40
      Contractor Suspensionl Debarment.............................                                45            22             22                45
      Employee Misconduct...................................................                       27            54             61                20
      Other.............................................................................           47            35             60                22

      TOTAL...........................................................................            435           273            342               366




5. Referrals                                                                                    Department of Justice or a U.S. Attorney for litigation
                                                                                                consideration. The OIG also makes administrative
                                                                                                referrals to GSA officials on cases disclosing nonprose-
The OIG makes criminal referrals to the Department of                                           cutable wrongdoing on the part of GSA employees, con-
Justice or other authorities for prosecutive considera-                                         tractors, or private individuals doing business with the
tion and civil referrals to the Civil Division of the                                           Government.




                                                       Table 5. Summary of OIG Referrals
                     Type of Referral                                                                          Cases                  Subjects

      Criminal ........................................................................ .                       32                      65
      Civil ............................................................................. ..                    16                      26
      Administrative .............................................................. .                           51                      83
      TOTAL .......................................................................... .                        99                     174




In addition, the OIG made 3 referrals to other Federal or                                       (17 subjects) were accepted for civil litigation. Criminal
State agencies for further investigation or other action                                        cases originating from OIG referrals resulted in
and 77 referrals to GSA officials for informational pur-                                        18 indictments/informations and 21 successful prosecu-
poses only.                                                                                     tions. OrG civil referrals resulted in 3 civil fraud com-
                                                                                                plaints and 6 settlementsfjudgments. Based on OIG
                                                                                                administrative referrals, management debarred 29 con-
6.        Actions on OIG Referrals                                                              tractors, suspended 6 contractors, reprimanded
Based on these and prior referrals, 19 cases (43 subjects)                                      24 employees, suspended 4 employees, demoted
were accepted for criminal prosecutions and 9 cases                                             1 employee, and terminated 3 employees.




                                                                                                                                                       IS
7.    Monetary Results                                                                       In addition, the OIG identified for recovery $1,747,778
                                                                                             in money and/or property during the course of its inves-
                                                                                             tigations.
Table 6 presents the amounts determined to be owed                                           Because of the collaborative nature of OIG activities,
the Government as a result of criminal and civil                                             $3,350,000 of the amounts reported as investigative recov-
actions. The amounts do not necessarily reflect actual                                       eries and criminal and civil recoveries is also reported
monetary recoveries.                                                                         under management decisions to disallow costs.




                                                 Table 6. Criminal And Civil Recoveries
                                                                                             Criminal                Civil                Total

     Fines and Penalties ........................ ...... ........................            $189,200           $       2,000         $ 191,200
     Settlements/Judgments ............................................... .                                        9,223,071          9,223,071
     Restitutions... ................. .......... ....... ....... ......... ..............    410,779                                    410,779

     TOTAL............................................... ............................       $599,979           $9,225,071            $9,825,050




8. DIG Subpoenas

During the period, 26 OIG subpoenas were issued.




16
APPENDICES
APPENDIX I-AUDIT REPORT REGISTER

                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to      Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use        Costs
           (Note: Due to the pre-decisional nature of some audits, the financial recommendations
                  pertaining to these reports are not listed in this Appendix.)




PBS        Internal Audits
10/05/89   A80354       Review of Appraisal Reports Used in GSA's Leasing
                        Program, Region 9
10/10/89   A90917       Preaward Lease Review: Providence Office Park, Portland,
                        Oregon, Lease No. GS-lOB-05537
10/11/89   A90939       Preaward Lease Review: Quissett Campus, Woods Hole,
                        MA, Lease No. GS-OlB(PEL)-03674 (NEG)
10/17/89   A90382       Review of the Akron, Ohio Buildings Management Field
                        Office, Region 5
10/25/89   A90641       Review of Fire Safety Conditions at the Leavenworth,
                        Kansas Federal Building
10/26/89   A00019       Preaward Lease Review: Cherry Creek Corporate Center,
                        Denver, Colorado, Lease No. GS-08P-12939
10/26/89   Aoomo        Preaward Lease Review: Forest Service Building,
                        Lakewood, Colorado, Lease No. GS-08P-11997
10/30/89   A90821       Preaward Lease Review: 1111 Third Avenue, Seattle,
                        Washington, Lease No. GS-lOB-05525
10/30/89   A90885       Review of Malfunctioning Sewer System, GSA
                        Distribution Center, Palmetto, Georgia, Lease No. GS-
                        04B-28085
10/31/89   A00033       Preaward Lease Review: 107 Lindbergh Boulevard, Garden
                        City, New York, Lease No. GS-02B-22525
11/07/89   A90451       Review of Fire Safety Conditions at the U.S. Post Office &
                        Courthouse, Athens, Georgia
11/14/89   A90860       Preaward Lease Review: 5645 South 48th Street, Lincoln,
                        Nebraska, Lease No. GS·06P-98798
11/16/89   A80909       Review of the Commercial Facility Management Program,
                        Region 9
11/17/89   A90744       Review of Buildings Management, Albuquerque Field
                        Office, Region 7
11/21/89   A00067       Preaward Lease Review: One Congress Street, Boston, MA,
                        Lease No. GS-OlB(PEL)-03678 (NEG)
11/21/89   A90049       Review of Reimbursable Work Authorization N7541410
                        for Construction of Telephone Switch room, Houston Field
                        Office



18
                                                                                         Financial
                                                                                     Recommendations
                                                                                 ~---.-----------




                                                                                   Funds to     Questioned
Date of    Assignment                                                             Be Put to    (Unsupported)
Report     Number                                Title                            Better Use       Costs

11/21/89   A90766       Review of Congressman Gonzalez's Concerns Relating to     14)63A32
                        the Purchase of the Ashford Oaks Building, San Antonio,
                        Texas
11/22/89   AOO036       Preaward Lease Review: Crystal Park One, 2011 Crystal
                        Drive, Arlington, VA, Lease No. GS-11B-90228
11/22/89   AOO037       Preaward Lease Review: 2805 Jefferson Davis Highway,
                        Arlington, Virginia, Lease No. GS-llB-90232
11/29/89   A90043       Review of Award and Administration of Guard Contracts,                   390,000
                        Region 5
11/29/89   A90946       Preaward Lease Review: 6303 & 6305 Ivy Lane, Greenbelt,
                        Maryland, Lease No. GS-llB-90216
12/05/89   AOO118       Preaward Lease Review: Gateway Centre, Kansas City,
                        Kansas, Lease No. GS-06P-09825
12/05/89   A00l25       Preaward Lease Review: The Key Building, 1200 Wilson
                        Boulevard, Arlington, Virginia, Lease No. GS-11B-00076
12/06/89   A00l22       Preaward Lease Review: INS Building, Harlingen, Texas,
                        Lease No. GS-07B-13337
12/06/89   A00l23       Preaward Lease Review: Sooner Federal Tower, Tulsa,
                        Oklahoma, Lease No. GS-07B-13398
12/11/89   A90793       Postaward Lease Review: 7 World Trade Center, New
                        York, New York, Lease No. GS-02B-22522
12/13/89   A00l24       Preaward Lease Review: 650 Massachusetts Avenue, NW,
                        Washington, DC, Lease No. GS-11B-90226
12/13/89   A00l70       Preaward Lease Review: Internal Revenue Service, Data
                        Center Warehouse, Detroit, Michigan, Lease No. GS-05B-
                        14892
12/19/89   A80973       Review of Roof Replacement Projects, Region 5
12/21/89   A00l86       Preaward Lease Review: Callowhill Street, Philadelphia,
                        PAl Lease No. GS-03B-09008
12/21/89   A90641       Review of Fire Safety Conditions at the Omaha, Nebraska
                        Federal Building
12/22/89   AOO082       Review of the Public Buildings Service Fiscal Year 1989
                        Section 2 Assurance Statement
12/22/89   AOO166       Preaward Lease Review: One Oak Plaza, Portland, Oregon,
                        Lease No. GS-lOB-05541
12/28/89   AOO082       Review of the Public Buildings Service Fiscal Year 1989
                        Section 2 Assurance Statement
12/28/89   A00203       Preaward Lease Review: Internal Revenue Service,
                        Waukesha, Wisconsin, Lease No. GS-05B-14893
12/28/89   A90l75       Review of Premium Time and Loss of Productivity
                        Payment Procedures Related to Construction Work at the
                        Federal Office Building, Jamaica, New York
12/29/89   A90905       Review of Buildings Management, San Antonio Field
                        Office, Region 7



                                                                                                           19
                                                                                             Financial
                                                                                  ---
                                                                                         Recommendations
                                                                                       Funds to     Questioned
Date of     Assignment                                                                Be Put to    (Unsupported)
Report      Number                                  Title                             Better Use       Costs

01/02/90    AOO140       Preaward Lease Review: 12565 West Center Road, Omaha,
                         Nebraska, Lease No. GS-06P-09824
01/04/90    A00206       Preaward Lease Review: Camarillo Business Center,
                         Camarillo, California, Lease No. GS-09B-89256
01/04/90    A90394       Review of Buildings Management, Albany Field Office,
                         Region 2
01/04/90    A90441       Review of the Repair and Alteration Prospectus Project at
                         the Federal Office Building and Courthouse, Hato Rey,
                         Puerto Rico
01/12/90    A90648       Review of the Twin Cities Field Office, Fort Snelling,
                         Minnesota
01/18/90    A00205       Preaward Lease Review: Techworld Plaza, 800 K Street,
                         NW, Washington, DC, Lease No. GS-llB-00079
01/19/90    A90582       Review of the Administration of Contract No. GS06P86                         32,163
                         GYC0052 With Day & Zimmermann, Inc.
01/23/90    A90686       Review of Buildings Management, Hartford, CT Field
                         Office, Region 2
01/23/90    A90871       Review of Fire Safety Conditions at the Federal Building
                         and Courthouse, Scranton, Pennsylvania
01/29/90    A00275       Preaward Lease Review: MEPS, Memphis, Tennessee,
                         Lease No. GS-04B-30004
01/29/90    A90638       Review of Fire and Life Safety Conditions at the U.S.
                         Courthouse, Austin, Texas
01/31/90    AOO093       Preaward Lease Review: Woodbridge Center Office
                         Complex, 10 Woodbridge Center Drive, Woodbridge, New
                         Jersey, Lease No. GS-02B-22532
02/05/90    A00262       Preaward Lease Review: Ames Center Building, 1820
                         North Fort Myer Drive, Arlington, Virginia, Lease No. GS-
                         1lE-000n
02/06/90    A90703       Postaward Lease Review: Shaw's Cove, Building No.4,
                         New London, CT, Lease No. GS-01B(PEL)-03509 (NEG)
02/12/90    A00264       Preaward Lease Review: One Lefrak City Plaza, Corona,
                         New York, Lease No. GS-02B-22531
02/12/90    A80634       Review of Commercial Facilities Management Contract                         296,146
                         No. GS05P87GAC0005
02/15/90    A00321       Preaward Lease Review: EPA, 111 W. Jackson, Chicago, IL,
                         Lease No. GS-05B-14195
02/16/90    A90676       Review of Construction, U.S. Post Office - Courthouse,
                         San Antonio, TX
02/26/90    A00344       Preaward Lease Review: St. Paul Plaza, 200 St. Paul Place,
                         Baltimore, MD, Lease No. GS-03B-09021
02/27/90    A90641       Review of Fire Safety Conditions at the Marine Corps
                         Reserve Support Center, Overland Park, Kansas
 02/28/90   A00274       Preaward Lease Review: Virginia Square Plaza, 3701 N.
                         Fairfax Drive, Arlington, VA, Lease No. GS-11B-00083


20
                                                                                           Financial
                                                                                       Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                  Title                            Better Use       Costs

02/28/90   A00392       Preaward Lease Review: Virginia 95, Building 6, 7500
                        Boston Boulevard, Springfield, VA, Lease No. GS-llB-
                        00093
03/01/90   AOO154       Preaward Lease Review: Mendenhall Mall, Juneau, Alaska,
                        Lease No. GS-lOB-05547
03/09/90   A81006       Review of the Loop Field Office, Chicago, Illinois                           2,462
03/12/90   AOO053       Review of Buildings Management Field Office
                        Procurement Activities, John F. Kennedy Federal Building,
                        Boston, MA
03/12/90   A00398       Preaward Lease Review: Scranton Building, Miami, FL,
                        Lease No. GS-04B-30061
03/12/90   A90581       Review of the Administration of Design Deficiencies,
                        Region 6
03/12/90   A90952       Review of the Repair and Alteration Program, Region 4
03/13/90   A00292       Preaward Lease Review: Tacoma Union Station, Tacoma,
                        Washington, Lease No. GS-lOB-05544
03/13/90   A00403       Preaward Lease Review: Two Rincon Center, 101 Spear
                        Street, San Francisco, CA, Lease No. GS-09B-90062
03/14/90   AOO099       Review of Potential Cost Reductions and Recoveries on            4,838      35,480
                        Monthly Elevator Maintenance Contract Payments, Con-
                        tract No. GS-IIP-MJC-0046
03/14/90   A00231       Preaward Lease Review: Pine Ridge West Business Park,
                        Lenexa, Kansas, Lease No. GS-06P-09830
03/14/90   A00232       Review of Hazardous Waste Found in a PBS Storage Area,
                        Rough and Ready Island, Stockton, California, Region 9
03/15/90   AOO143       Preaward Lease Review: 600 South Lafayette Park Place,
                        Los Angeles, California, Lease No. GS-09B-88354
03/15/90   A00404       Preaward Lease Review: 2198 Hornig Road, Philadelphia,
                        PA, Lease No. GS-03B-09025
03/19/90   A00423       Preaward Lease Review: Congress Avenue Office Park,
                        West Palm Beach, FL, Lease No. GS-04B-30059
03/22/90   AOO099       Review of Elevator Fire Recall System Deficiencies in the
                        Lafayette Building, Washington, DC, Contract No. GS-
                        IIP-86-MJC-0086
03/27/90   AOO148       Review of Administration of Lease No. GS-09B-38250,                         20,000
                        Phoenix, AZ, Region 9
03/27/90   A00204       Postaward Lease Review: Thomas Circle South Building,
                        1121 Vermont Avenue, NW, Washington, DC, Lease No.
                        GS-IIB-20083
03/27/90   A90870       Review of Administration of Lease No. GS-09B-85189,                        103,000
                        Phoenix, AZ, Region 9
03/28/90   A00411       Pre award Lease Review: 1050 Connecticut Avenue, NW,
                        Washington, DC, Lease No. GS-IIB-40054
03/29/90   AOO197       Postaward Lease Review: First Interstate Bank Tower,
                        Dallas, Texas, Lease No. GS-07B-13213


                                                                                                             21
                                                                                             Financial
                                                                                         Recommendations
                                                                                       Funds to     Questioned
Date of    Assignment                                                                 Be Put to    (Unsupported)
Report     Number                                  Title                              Better Use       Costs

03/29/90   A00456       Preaward Lease Review: Century Center IV Building,
                        Atlanta, GA, Lease No. GS-04B-30103
03/29/90   A90587       Review of Fire Safety Conditions at the Federal Building,
                        Mobile, AL
03/30/90   A00218       Review of Asbestos Hazard, Federal Building - Courthouse,
                        Macon, GA
03/30/90   A00322       Preaward Lease Review: Parldawn Building, 5600 Fishers
                        Lane, Rockville, Maryland, Lease No. GS-I1B-00082
03/30/90   A00361       Preaward Lease Review: Techworld Plaza, 801 Eye Street,
                        NW, Washington, DC, Lease No. GS-llB-00095
03/30/90   A00436       Preaward Lease Review: Fairchild Building, 499 South
                        Capitol Street, SW, Washington, DC, Lease No. GS-llB-
                        00097
03/30/90   A90638       Review of Fire and Life Safety Conditions at the Senator
                        Dennis Chavez Federal Building and United States
                        Courthouse, Albuquerque, New Mexico
03/30/90   A90944       Preaward Lease Review: Washington Office Center, 409
                        Third Street, SW, Washington, DC, Lease No. GS-I1B-
                        90210



 PBS       Contract Audits
10/04/89   A90776       Audit of Claim for Increased Costs: City Wide
                        Maintenance Company, Inc., Contract No. GS-
                        06P88GXC0283
10/05/89   A90517       Audit of Termination Settlement Proposal: Unisys
                        Corporation, Contract No. GS-00P-87-BQD-0028
10/05/89   A90830       Preaward Audit of Small Business Administration 81al
                        Pricing Proposal: Met Construction Co., Inc., Solicitation
                        No. GS-07P-89-HUC-0114
10/06/89   A90913       Pre award Audit of Cost or Pricing Data: Project
                        Management Services, Inc., Contract No. GS-IIP-
                        89EGC0203
10/16/89   A90819       Audit of Claim for Increased Costs: Gilroy-Sims and
                        Associates, Lease No. GS-06B-10967
10/20/89   A90792       Preaward Audit of Lease Escalation Proposal: Se-Fish
                        Associates, 599 Delaware Ave., Buffalo, NY, Lease No. GS-
                        02B-08978
10/25/89   A90900       Preaward Audit of Architect and Engineering Services
                        Contract: GNM & Associates, Inc., Contract No.
                        GSI1P89EGD0206
10/25/89   A90916       Postaward Audit of Cost Reimbursable Contract:       J& J
                        Maintenance, Inc., Contract No. GS-07B-21602
10/26/89   A90459       Audit of Claim for Increased Costs: Pacific Erectors, Inc.,
                        Subcontractor to Blount Brothers Corporation, Contract
                        No. GS-lOP-02633

22
                                                                                             Financial
                                                                                         Recommendations
                                                                                      Funds to      Questioned
Date of    Assignment                                                                 Be Put to    (Unsupported)
Report     Number                                  Title                              Better Use       Costs

10/30/89   A90504       Audit of Claim for Increased Costs: Blaesing Granite
                        Company, Subcontractor to Blount Brothers Corporation,
                        Contract No. GS-1OP-02633
10/31/89   A90812       Preaward Audit of Architect and Engineering Services
                        Contract: Spillis Candela/Warnecke, Contract No.
                        GS11P89EGC0l82
11/01/89   A90906       Preaward Audit of Pricing Proposal: B&H Services,
                        Inc'/Palmer's Building Maintenance, Inc., Joint Venture,
                        Solicitation No. GS05P89GAC0185
11/03/89   A90838       Preaward Audit of Architect and Engineering Services
                        Contract: HTB, Inc., Contract No. GS-llP89EGC0203
11/03/89   A90886       Preaward Audit of Lease Alteration Proposal: Center City
                        plaza Associates, Lease No. GS-01B(PEL)-03615(NEG)
11/06/89   A90759       Audit of Claim for Increased Costs: Delta Construction &
                        Engineering, Inc., Contract No. GS-1OP-86-LTC-0045
11/07/89   AOO038       Pre award Audit of Cost or Pricing Data: Hygienetics, Inc.,
                        Contract No. GSllP89EGC0203
11/07/89   A90457       Audit of Claim for Increased Costs: Washington
                        Acoustical Company, Subcontractor to Blount Brothers
                        Corporation, Contract No. GS-1OP-02633
11/08/89   AOO026       Preaward Audit of Architect and Engineering Services
                        Contract: Rolf Jensen & Associates, Inc., Consultant to
                        Notter, Finegold & Alexander, Inc., Solicitation No.
                        GSllPS9EGC0186
11/08/89   A90845       Preaward Audit of Architect and Engineering Services
                        Contract: Leo A. Daly Company, Solicitation No.
                        IM022020
11/14/89   A90458       Audit of Claim for Increased Costs: W. A. Botting
                        Company, Subcontractor to Blount Brothers Corporation,
                        Contract No. GS-10P-02633
11/14/89   A90666       Audit of Claim for Increased Costs: Riedel International,
                        Inc., Subcontractor to Blount Brothers Corporation,
                        Contract No. GS-lOP-02633
11/15/89   A90503       Audit of Claim for Increased Costs: Nelson International
                        Ltd. and Riedel International, Inc., (A Joint Venture),
                        Subcontractor to Blount Brothers Corporation, Contract
                        No. GS-lOP-02633
11/17/89   AOOOll       Preaward Audit of Architect and Engineering Services
                        Contract: Kieran, Timberlake & Harris, Solicitation No.
                        ZDE-OOSOl
11/17/89   A90899       Preaward Audit of Architect and Engineering Services
                        Contract: Notter, Finegold, and Alexander, Inc., Contract
                        No. GS11P89EGC0186
11/17/89   A90953       Audit of Termination Settlement Proposal: Rogers,
                        Burgun, Shahine and Deschler, Inc., Architects, Contract
                        No. GS-OOP-S7-BQC-0096
11/20/89   A90353       Preaward Audit of Lease Escalation Proposal: Florida East
                        Coast Properties, Inc., Lease No. GS-04B-15913

                                                                                                              23
                                                                                           Financial
                                                                                       Recommendations
                                                                                                   --------"-"-
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

11/22/89   A90894       Preaward Audit of Architect and Engineering Services
                        Contract: Summer Consultants, Inc., Contract No.
                        GSIIP89EGC0204
11/28/89   AOOO18       Preaward Audit of Lease Alteration Proposal: 380
                        Westminster Mall, Providence, RI, Lease No. GS-OIB(PEL)-
                        03314(NEG)
11/28/89   A90721       Audit of Claim for Increased Costs: Young Enterprises,
                        Inc., Contract No. GS-07P-86-HUC-0l37
11/30/89   AOO021       Preaward Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-l1B-80202, Security
                        System Installation
11/30/89   A90893       Pre award Audit of Architect and Engineering Services
                        Contract: Sorg and Associates, Contract No. GS-
                        I1P89EGC0204
12/08/89   A90865       Preaward Audit of Architect and Engineering Services
                        Contract: Syska and Hennessy, Inc., Solicitation No. GS-
                        02P-89CUC0028(NEG)
12/08/89   A90950       Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: Sidhu Associates, Inc.,
                        Solicitation No. GS-03P-89-DXD-0037
12/11/89   AOO083       Preaward Audit of Architect and Engineering Services
                        Contract: Warterfie1d Goodwin Griffin, Inc., Contract No.
                        GS-04P-89-EXC-0103
12/11/89   A90460       Audit of Claim for Increased Costs: Blount Brothers
                        Corporation, Contract No. GS-lOP-02633
12/11/89   A90951       Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: Whitney, Bailey, Cox &
                        Magnani, Consulting Engineers, Solicitation No. GS-03P-
                        89-DXD-0037
12/12/89   A90771       Audit of Claim for Increased Costs: Norman Tremonti,
                        Lease No. GS-OSB-12458
12/13/89   AOO084       Preaward Audit of Architect and Engineering Services
                        Contract: I. C. Thomasson Associates, Inc., Contract No.
                        GS-04P-89-EXC-0103
12/14/89   A90856       Preaward Audit of Lease Escalation Proposal: Denver West
                        Office Buildings 2 and 3, Lease Nos. GS-08B-09787 and
                        GS-08B-l 0737
12/14/89   A90928       Preaward Audit of Architect and Engineering Services
                        Contract: Einhorn Yaffee Prescott Architecture and
                        Engineering, P.C, Solicitation No. GS-11P-89-EGC-0200
12/19/89   AOO044       Preaward Audit of Architect and Engineering Services
                        Contract: Asbestos Abatement Services, Inc., Contract No.
                        GS 11 P89EGCO 186
12/19/89   AOO107       Audit of Cafetria Services Contract: IRS, Holtsville, New
                        York, Lackman Food Service, Contract No. GS-02B-24-084
12/19/89   A90930       Preaward Audit of Lease Escalation Proposal: C. W.
                        Swenson, Inc., Phase I, Lease No. GS-09B-75318



24
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use       Costs

12/20/89   AOO029       Preaward Audit of Lease Escalation Proposal: C. W.
                        Swenson, Inc., phase II, Lease No. GS-09B-75318
12/20/89   AOOll1       Pre award Audit of Lease Escalation Proposal: Trizec
                        Properties, Inc., Lease No. GS-09B-76206
12/20/89   A90918       Preaward Audit of Architect and Engineering Services
                        Contract: Pahl-Pahl-Pahl, P.e. Solicitation No. GS-07P-89-
                        HUD-0102
12/21/89   AOO076       Preaward Audit of Architect and Engineering Services
                        Contract: George Butler Associates, Inc., Solicitation No.
                        ZM091240
12/21/89   AOOlOO       Preaward Audit of Architect and Engineering Services
                        Contract: Church-Suzuki Architects, Solicitation No. GS-
                        09P-89- KTD-0072
12/21/89   AOO101       Preaward Audit of Architect and Engineering Services
                        Contract: Notkin Engineering, Inc., Solicitation No. GS-
                        09P-89-KTD-0072
12/21/89   AOO146       Audit of Cafeteria Contract: Canteen Corporation,
                        Contract No. GS-01C-10131-01 for the Period August I,
                        1986 to July 31, 1991
12/21/89   AOO189       Pre award Audit of Cost or Pricing Data: Superior Gunite,
                        Subcontractor to Tutor-Saliba, Contract No. GS-
                        09P88KTC0232
12/21/89   A90884       Preaward Audit of Cost or Pricing Data: Ogden Allied
                        Building & Airport Services, Solicitation No. GS-07P-89-
                        HTC-0075/7PPB
12/22/89   AOO046       Audit of Termination Proposal: T & S Paint Contractors,
                        Inc., Contract No. GS-07P-86-HUC-0027
12/22/89   AOO046       Audit of Termination Proposal: Hamilton Acoustical, Co.,
                        Contract No. GS-07P-86-HUC-0027
12/22/89   AOOO7l       Audit of Termination Proposal: Hogan Construction, Inc.,
                        Contract No. GS-07P-88-HUC-0006
12/22/89   A90920       Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: The Ives Group,
                        Solicitation No. GS-02P-89CUD0027(NEG)
01/04/90   AOO090       Preaward Audit of Architect and Engineering Services
                        Contract: Michaud, Cooley, Erickson and Associates, Inc.,
                        Consultant to The Wold Association, Inc., Solicitation No.
                        GS05P89GBC0111
01/05/90   A00129       Preaward Audit of Architect and Engineering Services
                        Contract: Fletcher Fan Ayotte, P.e., Solicitation No. GS-
                        09P-89- KTD-0070
01/08/90   A00089       Pre award Audit of Architect and Engineering Services
                        Contract: The Wold Association, Inc., Solicitation No.
                        GS05P89GBCO III
01/16/90   A00064       Preaward Audit of Architect and Engineering Services
                        Contract: E-B-L Engineers, Inc., Contract No.
                        GS 11 P89EGC0209


                                                                                                             25
                                                                                             Financial
                                                                                         Recommendations
                                                                                       Funds to     Questioned
 Date of   Assignment                                                                 Be Put to    (Unsupported)
 Report    Number                                  Title                              Better Use       Costs

01/16/90   AOO130       Preaward Audit of Architect and Engineering Services
                        Contract: Interface Engineering, Inc., Solicitation No. GS-
                        09P-89-KTD-0070
01/16/90   A90866       Preaward Audit of Architect and Engineering Services
                        Contract: Selmon T. Franklin Associates, Architects, Inc.,
                        Contract No. GS-04P-89-EXC-0049
01/19/90   AOO045       Preaward Audit of Pricing Proposal: McCoy Services, Inc.,
                        Solicitation No. GS05P89GAC0152
01/22/90   AOO088       Preaward Audit of Change Order Proposal: TRC
                        Environmental Consultants, Inc., Subcontractor to Tutor-
                        Saliba Corporation, Contract No. GS-09P-88KTC022
01/25/90   AOO060       Preaward Audit of Litigation Support Services Contract:
                        Day & Zimmermann, Inc., Contract No. GS-00P-89-BQD-
                        0053
01/25/90   AOO127       Preaward Audit of Change Order Proposal: Foulger-Pratt
                        Construction, Inc., Contract No. GS-llP-8701
01/29/90   AOO092       Pre award Audit of Architect and Engineering Services
                        Contract: George Vaeth Associates, Inc., Contract No.
                        GS 11 P89EGC0209
01/31/90   AOO151       Preaward Audit of Architect and Engineering Services
                        Contract: Henry Adams, Inc., Project No. IMD-96646
01/31/90   A90818       Audit of Claim for Increased Costs: North Pointe
                        Properties, Ltd., Lease No. GS-09B-86616
02/01/90   AOO199       Preaward Audit of Pricing Proposal: Concord Steam
                        Cogeneration Services Corporation, Solicitation No. GS-
                        07P -89-JWC-O 105
02/05/90   A00298       Preaward Audit of Cost or Pricing Data: Owen Pacific
                        Roofing and Waterproofing, Subcontractor to Tutor-Saliba,
                        Contract No. GS09P88KTC0232
02/05/90   A00299       Preaward Audit of Cost or Pricing Data: Border Steel
                        Fabricators, Subcontractor to Tutor-Saliba, Contract No.
                        GS09P88KTC0232
02/06/90   AOOO06       Preaward Audit of Letter Contract: Foundation and
                        Parking, New Los Angeles Federal Building, Tutor-Saliba
                        Corporation, Contract No. GS09P88KTC0232
02/06/90   A00216       Preaward Audit of Architect and Engineering Services
                        Con trac t: Professional Engi neering Cons ul tan ts,
                        Solicitation No. NKS90009
02/07/90   A90936       Audit of Claim for Increased Costs: Vector Electronic
                        Systems, Inc., Contract No. GS-05-P86-GBC-0019
02/08/90   AOO152       Pre award Audit of Architect and Engineering Services
                        Contract: Beck, Powell & Parsons, Inc., Project No. IMD-
                        96650
02/09/90   AOOOlO   Preaward Audit of Price to be Determined Later Change
                    Order: Tutor-Saliba Corporation, Monitoring of Off-site
                    Wells, Contract No. GS09P88KTC0232




26
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use       Costs

02/09/90   A00215       Preaward Audit of Architect and Engineering Services
                        Contract: Taliaferro and Browne Consulting Engineers,
                        Solicitation No. NKS90009
02/12/90   A00213       Preaward Audit of Architect and Engineering Services
                        Contract: Gossen Livingston Associates, Solicitation No.
                        NKS90009
02/12/90   A00214       Preaward Audit of Architect and Engineering Services
                        Contract: Hansen Lind Meyer, Inc., Solicitation No.
                        NKS90009
02/13/90   A90536       Preaward Audit of Lease Escalation Proposal: Tishman
                        Speyer Market Street Limited Partnership, Lease No. GS-
                        09B-73066
02/13/90   A90808       Preaward Audit of Change Order Proposal: Korte
                        Construction Company, Contract No. GS05P88GBC0114
02/15/90   AOOO07       Preaward Audit of Price to Be Determined Later Change
                        Order: Tutor-Saliba Corporation, PC01 Permits, Contract
                        No. GS09P88KTC0232
02/15/90   AOOO08       Preaward Audit of Price to Be Determined Later Change
                        Order: Tutor-Saliba Corporation, Procure and Install Water
                        Treatment Plant, Contract No. GS09P88KTC0232
02/15/90   AOOO09       Pre award Audit of Price to Be Determined Later Change
                        Order: Tutor-Saliba Corporation, Start-up and
                        Maintenance of Water Treatment Plant, Contract No.
                        GS09P88KTC0232
02/15/90   A00134       Preaward Audit of Architect and Engineering Services
                        Contract: Goldman, Copeland, Batlan and Oxman, P.C.,
                        Consultant to Ehrenkrantz, Eckstut and Whitelaw
                        Architects, P.C, Contract No. GS-02P-90CUC0067(NEG)
02/16/90   A00091       Preaward Audit of Price to Be Determined Later Change
                        Order: Tutor-Saliba Corporation, Completion of
                        Foundation and Parking, New Los Angeles Federal
                        Building, Contract No. GS09P88KTC0232
02/16/90   A90912       Audit of Claim for Increased Costs: A. R. Scalise, Inc.,
                        Contract No. GS-03P-88-DXC-0069
02/21/90   A00l85       Preaward Audit of Architect and Engineering Services
                        Contract: Jones, Nall, and Davis, Inc., Contract No. GS-
                        04P-89-EXD-0138
02/22/90   AOOO16       Audit of Claim for Increased Costs: Sherry & O'Leary,
                        Inc., Contract No. GS-03P-88-DXC-0069
02/22/90   A90840       Audit of Claim for Increased Costs: Grunley-Walsh Joint
                        Venture, Contract No. GS-11P86MKC7304
02/23/90   A9065 1      Preaward Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-ll B-80202, 3rd Floor
                        East
02/23/90   A90774       Audit of Claim for Increased Costs: Ogden Allied Services
                        Corporation, Contract No. GS-07-P-87-HT-C-0098




                                                                                                             27
                                                                                              Financial
                                                                                          Recommendations
                                                                                        Funds to     Questioned
Date of     Assignment                                                                 Be Put to    (Unsupported)
Report      Number                                  Title                              Better Use       Costs
02/26/90    AOOOIS       Audit of Claim for Increased Costs: Ferry Electric
                         Company, Contract No. GS-03P-88-DXC-0069
02/26/90    AOOl33       Pre award Audit of Architect and Engineering Services
                         Contract: Ehrenkrantz, Eckstut and Whitelaw Architects,
                         P.C, Contract No. GS-02P-89CUC0067(NEG)
02/27/90    AOOOOS       Preaward Audit of Price to Be Determined Later Change
                         Order: Tutor-Saliba Corporation, Slab Redesign at the New
                         Los Angeles Federal Building, Contract No. GS-
                         09P88KTC0232
02/27/90    AOOl84       Preaward Audit of Architect and Engineering Services
                         Contract: The Hauseman Group, Contract No. GS-04P-89-
                         EXD-0l38
 02/27/90   A002S9       Pre award Audit of Small Business Administration 8(a)
                         Pricing Proposal: Sir Clean Building Services, Solicitation
                         No. GS-04P-89-EWC-0134
02/27/90    A90938       Audit of Claim for Increased Costs: W.M. Brown
                         Construction Corporation, Contract Nos. GS-07P-8 7-
                         HUC-0099 and GS-07P-88-HUC-00SO
02/28/90    AOO113       Preaward Audit of Change Order Proposal: Danville-
                         Findorff, Inc./DEC Electric, Inc., Subcontractor, Contract
                         No. GS-04P-87-C007S
02/28/90    AOOl13       Pre award Audit of Change Order Proposal: Danville-
                         Findorff, Inc., Contract No. GS-04P-87-C007S
02/28/90    AOO113       Preaward Audit of Change Order Proposal: Danville-
                         Findorff, Inc./ A.G.Drywall, Inc., Subcontractor, Contract
                         No. GS-04P-87-C007S
02/28/90    AOOI92       Preaward Audit of Architect and Engineering Services
                         Contract: Pappas Associates, Architects, Inc., Contract
                         No. GS-04P-86-00S7
02/28/90    AOOl93       Preaward Audit of Architect and Engineering Services
                         Contract: Southeastern Chemists Laboratories, Contract
                         No. GS-04P-S7-C007S
02/28/90    A00239       Preaward Audit of Architect and Engineering Services
                         Contract: Vertrans Design Associates, Solicitation No. GS-
                         03P-S9-DXD-0079
02/28/90    A906S2       Preaward Audit of Lease Alteration Proposal: Lincoln
                         Property Company, Lease No. GS-IIB-S0202, 6th Floor
                         West
02/28/90    A906S3       Preaward Audit of Lease Alteration Proposal: Lincoln
                         Property Company, Lease No. GS-IIB-S0202, 8th Floor
                         West
03/02/90    A00293       Preaward Audit of Pricing Proposal: Solar Turbines, Inc.,
                         Contract No. GS-03P-S9-DWC-0047
03/02/90    A90729       Preaward Audit of Lease Alteration Proposal: Lincoln
                         Property Company, Lease No. GS-llB-S0202, 9th Floor
                         West
03/02/90    A90911       Audit of Claim for Increased Costs: P. 1. Dick Contracting,
                         Inc., Contract No. GS-03P-SS-DXC-0069

28
                                                                                       Financial
                                                                                ---
                                                                                   Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

03/06/90   A00034       Preaward Audit of Litigation Support Services Contract:
                        Hill International, Inc., Solicitation No. GS-00P-89-BQD-
                        0004
03/07/90   A90756       Preaward Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-llB-80202, 10th Floor
                        West
03/07/90   A90784       Preaward Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-11B-80202, 3rd Floor
                        West
03/08/90   A00302       Preaward Audit of Small Business Administration 8(al
                        Pricing Proposal: AKBAR Electric Service Company, Inc.,
                        Solicitation No. GS06P90GYC0032
03/09/90   A00207       Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: Sheladia Associates, Inc.,
                        Solicitation No. GS-03P-89-DXD-0059
03/13/90   A00268       Audit of Termination Proposal: American Combustion
                        Industries, Inc., Contract No. GS-11P87MKC7461
03/13/90   A90915       Preaward Audit of Architect and Engineering Services
                        Contract: Setty & Associates, Ltd., Contract No.
                        GS11P89EGC0186
03/15/90   A00317       Pre award Audit of Change Order Proposal: Terminal
                        Construction Corp., Temporary Window Enclosures,
                        Contract No. GS-02P-23256
03/16/90   A00162       Audit of Claim for Increased Costs: Charles G. Williams
                        Construction, Inc., Contract No. GS-07P-88-HUC-0095
03/19/90   AOO109       Preaward Audit of Change Order Proposal: Dawson
                        Construction Company, Contract No. GS-07P-31521
03/20/90   A90689       Audit of Claim for Increased Costs: John Miller Electric
                        Co., Inc., A Subcontractor to Centex Construction Co.,
                        Inc., Contract No. GS-llB-19066
03/21/90   A00135       Audit of Claim for Increased Costs: G.F. Cook
                        Development Corporation, Contract No. GS-lOP-86-LTC-
                        0045, GSBCA Docket No. 10182
03/21/90   A90786       Preaward Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-11B-80202, 7th Floor
                        West
03/22/90   A00306       Preaward Audit of Supplemental Architect and
                        Engineering Services Contract: Burdette, Koehler,
                        Murphy & Associates, Inc., Solicitation No. GS-03P-89-
                        DXD-0059
03/22/90   A90785       Pre award Audit of Lease Alteration Proposal: Lincoln
                        Property Company, Lease No. GS-11B-80202, 5th Floor
                        West
03/26/90   A00220       Pre award Audit of Change Order Proposal: Terminal
                        Construction Corp., Winter Heating Expenses, Contract
                        No. GS-02P-23256
03/28/90   A00336       Preaward Audit of Pricing Proposal: Palmer's Building
                        Maintenance, Inc., Solicitation No. GS05P89GAC0180

                                                                                                            29
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use       Costs
03/28/90   A00386       Pre award Audit of Architect and Engineering Services
                        Contract: Silver, Naylor & Associates, Solicitation No.
                        GS-07P-89-HUD-0131
03/28/90   A00415       Preaward Audit of Architect and Engineering Services
                        Contract: Gauthier, Alvarado and Associates, Inc.,
                        Contract No. GS03P89DXC0093
03/28/90   A90775       Audit of Claim for Increased Costs: Ogden Allied Services
                        Corporation (Building No. 40), Contract No. GS-07-P-87-
                        HT-C-0098
03/29/90   AOO188       Audit of Claim for Increased Costs: John Driggs Company,
                        Inc., A Subcontractor to Centex Construction Company,
                        Inc., Contract No. GS-11B-19066
03/29/90   A00327       Preaward Audit of Cost or Pricing Data: Latco
                        Construction Company, Inc., Contract No. GS-04P-90-EX-
                        C0028
03/29/90   A00327       Preaward Audit of Cost or Pricing Data: Latco
                        Construction Company, Inc./Armstrong Mechanical, Inc.,
                        dba Dass Air Conditioning, Subcontractor, Contract No.
                        GS-04P-90-EX-C0028
03/29/90   A00327       Preaward Audit of Cost or Pricing Data: Latco
                        Construction Company, Inc./Scientific Asbestos Control
                        Inc., Subcontractor, Contract No. GS-04P-90-EX-C0028
03/29/90   A00422       Preaward Audit of Architect and Engineering Services
                        Contract: Seal Engineering, Inc., Contract No.
                        GS03P89DXC0093
03/30/90   A00175       Audit of Claim for Increased Costs: GRG Engineering,
                        Inc., Contract No. GS-02P-86CUC0085
03/30/90   A90631       Audit of Claim for Increased Costs: MCr Constructors,
                        Inc., Contract No. GS-11B-19067

FSS        Internal Audits
10/25/89   A90366       Review of Time and Attendance Practices, Fort Worth
                        Customer Supply Center
11/03/89   A90521       Review of Inventory of Sensitive Items, Western
                        Distribution Center, Stockton, Region 9
11/29/89   A90498       Review of the Long Supply Program in the Federal Supply
                        Service's Furniture Commodity Center
12/05/89   A90450       Review of Shelf-Life Products, Western Distribution
                        Center, Region 9
12/08/89   A80368       Review of the Fort Worth Fleet Management Center,
                        Region 7
12/08/89   A90437       Review of GSA's Oversight of Travel Management
12/14/89   A80368       Review of the Farmington Fleet Management Sub-Center,
                        Region 7
12/21/89   A90941       Review of Federal Supply Service, Fiscal Year 1989 Section
                        2 Assurance Statement

30
                                                                                          Financial
                                                                                      Recommendations
                                                                                    Funds to     Questioned
Date of    Assignment                                                              Be Put to    (Unsupported)
Report     Number                                  Title                           Better Use       Costs

12/29/89   A90787       Review of Gelco Travel Management Center, Contract
                        No. GS-OWF-53085
01/09/90   A90449       Review of Inventory Surveillance Activities, Western
                        Distribution Center, Region 9
01/17/90   A90520       Review of Quality Control for Stock Items
01/29/90   A90742       Review of the Personal Property Donation Program at the
                        Kansas State Agency for Surplus Property
02/05/90   A80888       Review of the Missouri State Agency for Surplus Property
02/26/90   A90548       Review of the Long Supply Program in the Federal Supply
                        Service's Office Supplies and Paper Products Commodity
                        Center
02/27/90   A90l96       Review of Fleet Management Operations, Region 6
02/28/90   AOO150       Review of the Industrial Product Center, Storage of
                        Flammable Products
02/28/90   A00339       Review of Omega Travel Management Center, Contract
                        No. GS-OWF-53087
03/12/90   A90834       Review of Award Documents for Multiple Award Schedule
                        Contracts in the Federal Supply Service
03/15/90   A90643       Review of Fleet Management Regional Maintenance
                        Control Center, Denver, Colorado
03/22/90   A90438       Review of Fleet Management Center, Denver, Colorado
03/22/90   A90921       Review of Accountability for Federal Surplus Property
03/23/90   AOO150       Review of the Industrial Product Center, Observation of
                        the February 1990 Wall-to-Wall Inventory
03/23/90   A90104       Review of Personal Property Sales, Region 5
03/23/90   A90366       Review of the Fort Worth Customer Supply Center
03/23/90   A90826       Review of Quality and Inventory Control Branch at the
                        Southeast Distribution Center, Palmetto, Georgia
03/29/90   AOO142       Review of the Personal Property Donation Program and
                        the District of Columbia State Agency for Surplus
                        Property



FSS        Contract Audits
10/11/89   A90749       Preaward Audit of Multiple Award Schedule Contract:
                        Porter Cable Corporation, Solicitation No. 6FEC-K7-
                        89003-B
10/18/89   A90405       Postaward Audit of Multiple Award Schedule Contract:                      145,043
                        General Electric Company, Contract No. GS-07F-11831 for
                        the Period October 3, 1984 to December 31, 1987
10/18/89   A90847       Preaward Audit of Multiple Award Schedule Contract:
                        Gould Inc., Recording Systems Division, Solicitation No.
                        FCGS-Z7-89-0015-B


                                                                                                            31
                                                                                          Financial
                                                                                      Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                              Be Put to    (Unsupported)
Report     Number                                 Title                            Better Use       Costs

lO/18/89   A90864       Preaward Audit of Cost or Pricing Data: Ortho
                        Pharmaceutical Corporation, Solicitation No. FCGA-A3-
                        QY448-N-8-11-89
lO/20/89   A90841       Pre award Audit of Multiple Award Schedule Contract:
                        Esterline Angus Instrument Corporation, Solicitation No.
                        FCGS-Z7-89-0015-B
lO/26/89   A90357       Postaward Audit of Multiple Award Schedule Contract:                       46,351
                        Center Core, Inc., Contract No. GS-00F-76507
lO/30/89   A90931       Postaward Audit of New Item Introductory Schedule                          13,375
                        Contract: P.A.L. Systems Company, Contract No. GS-OOF-
                        79377 for the Period May 9, 1985 to May 8, 1987
11/07/89   AOOO14       Preaward Audit of Multiple Award Schedule Contract:
                        Honeywell, Test Instruments Division, Solicitation No.
                        FCGS-Z7 -89-0015-B-7-18-89
11/15/89   A90426       Postaward Audit of Multiple Award Schedule Contract:                        3,220
                        Kaplan School Supply Corporation, Contract No. GS-OOF-
                        94049 for the Period September I, 1986 to June 30, 1987
11/20/89   AOO059       Preaward Audit of Multiple Award Schedule Contract:
                        Wexford Labs, Inc., Solicitation No. TFTC-89-MR-686AB
11/20/89   A90806       Postaward Audit of Multiple Award Schedule Contract:                       77,530
                        Thomasville Furniture Industries, Inc., Contract No. GS-
                        00F-94586 for the Period August 27, 1987 to January 31,
                        1989
11/20/89   A90880       Preaward Audit of Multiple Award Schedule Contract:
                        Zenith Electronics Corporation, Solicitation No. 7FXG-
                        Z3-89-7702-B
11/28/89   A90777       Postaward Audit of Government Billings Under Multiple                         811
                        Award Schedule Contract: Telenex Corporation, Contract
                        No. GS-00F-93494 for the Period February 1, 1988 to
                        April 30, 1989
11/29/89   A90538       Postaward Audit of Multiple Award Schedule Contract:
                        Dun & Bradstreet Credit Services, Contract No. GS-OOF-
                        91609
12/01/89   AOO028       Preaward Audit of Multiple Award Schedule Contract:
                        Advance Machine Company, Solicitation No. 7FXG-N4-
                        89-7927-B
12/08/89   AOO031       Pre award Audit of Multiple Award Schedule Contract:
                        Hako Minuteman, Inc., Solicitation No. 7FXG-N4-89-
                        7927-B
12/15/89   AOO065       Preaward Audit of Multiple Award Schedule Contract:
                        Thermo Environmental Instruments Inc., Solicitation No.
                        FCGS-Y7 -89-0003-B-1 0-11-89
12/22/89   AOO087       Preaward Audit of Multiple Award Schedule Contract:
                        Huntington Laboratories, Inc., Solicitation No. TFTC-89-
                        MR-686AB
12/22/89   AOOlO3       Postaward Audit of Multiple Award Schedule Contract:                       14,318
                        Second Chance Body Armor, Inc., Contract No. GS-OlF-
                        OlO21 for the Period November 13,1986 to July 31,1988


32
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use       Costs

12/28/89   A00120       Preaward Audit of Multiple Award Schedule Contract:
                        Phannacia LKB Nuclear, Inc., Solicitation No. FCGS-Z7-
                        89-0018-B
12/29/89   AOO119       Pre award Audit of Multiple Award Schedule Contract:
                        Jasco Incorporated, Solicitation No. FCGS-Z7-89-0018-B
12/29/89   AOO190       Pre award Audit of Multiple Award Schedule Contract:
                        Varian Associates, Inc., Solicitation No. FCGS-Z7-89-
                        0018-B-II-I-89
01/04/90   AOO191       Preaward Audit of Multiple Award Schedule Contract: Tracor
                        Xray, Inc., Solicitation No. FCGS-Z7-89-0018-B-11-1-89
0l/09/90   AOO149       Preaward Audit of Multiple Award Schedule Contract:
                        Wordata, Inc., Solicitation No. 2FYS-AJ-89-0001-B
01/09/90   A90425       Postaward Audit of International Federal Supply Contract:                   163,707
                        Kaplan School Supply Corporation, Contract No. GS-01F-
                        09475 for the Period May 23, 1985 to November 30, 1987
01/11/90   AOO181       Preaward Audit of Multiple Award Schedule Contract:
                        Educational Research Systems, Inc., dba Executive
                        Planning Systems, Solicitation No. 2FYS-AJ-89-0001-B
01/12/90   AOO074       Pre award Audit of Multiple Award Schedule Contract:
                        Synergetics International, Inc., Solicitation No. FCGS-X3-
                        38009-N-6-29-89
01/12/90   AOO145       Preaward Audit of Multiple Award Schedule Contract:
                        Lista International Corporation, Solicitation No. FCNH-
                        89-F712-N-1O-19-88
01/17/90   AOO121       Pre award Audit of Multiple Award Schedule Contract:
                        Perkin-Elmer Corporation, Solicitation No. FCGS-Z7-89-
                        0018-B-N
01/17/90   AOO183       Preaward Audit of Multiple Award Schedule Contract:
                        Federal Sales Service, Inc., Solicitation No. 2FYS-89-AJ-
                        0001B
01/18/90   A00230       Preaward Audit of Multiple Award Schedule Contract:
                        Alperstein Brothers, Inc., Solicitation No. 2FYS-89-AJ-
                        0001B
01/23/90   A00256       Postaward Audit of Multiple Award Schedule Contract:                          4,498
                        Thermo Environmental Instruments Inc., Contract No.
                        GS-00F-93340
01/25/90   AOO153       Pre award Audit of Multiple Award Schedule Contract:
                        Kevex Instruments, Inc., Solicitation No. FCGS-Z7-89-
                        0018-B-II-I-89
01/26/90   AOOI72       Preaward Audit of Multiple Award Schedule Contract:
                        Shachihata Inc. (USA), Solicitation No. 2FYS-89-AJ-0001B
01/29/90   AOO097       Preaward Audit of Multiple Award Schedule Contract:
                        Eberline Instrument Corporation, Solicitation No. FCGS-
                        Y7 -89-0003-B
01/31/90   AOO030       Preaward Audit of Multiple Award Schedule Contract:
                        Breuer Electric Manufacturing Company, Solicitation No.
                        7FXG-N4-89-7927-B


                                                                                                              33
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                 Title                              Better Use       Costs

01/31/90   AOO178       Pre award Audit of Multiple Award Schedule Contract:
                        Ciba Corning Diagnostics Corp., Solicitation No. FCGS-
                        Z7-89-0018-B-N
01/31/90   A00261       Postaward Audit of Multiple Award Schedule Contract:                          2,285
                        Ciba Corning Diagnostic Corp., Contract No. GS-OOF-93710
                        for the Period May I, 1987 to April 30, 1990
01/31/90   A90919       Preaward Audit of Multiple Award Schedule Contract:
                        Nautilus Sports/Medical Industries, Inc., Solicitation No.
                        7FXG-J3-88-7802-B
02/01/90   AOO098       Preaward Audit of Cost or Pricing Data: Hill's Pet
                        Products, Inc., Solicitation No. 7FXG-£3-89-8702-N
02/01/90   A00223       Preaward Audit of Multiple Award Schedule Contract:
                        Chartpak, Solicitation No. 2FYS-89-AJ-0001B
02/06/90   AOO066       Pre award Audit of Multiple Award Schedule Contract: The
                        Hoover Company, Solicitation No. 7FXG-N4-89-7927-B
02/07/90   A00217       Preaward Audit of Multiple Award Schedule Contract: W.
                        H. Brady Company, Solicitation No. 2FYS-AJ-89-0001-B
02/09/90   AOO165       Preaward Audit of Multiple Award Schedule Contract:
                        Shamrock Scientific Specialty Systems, Inc., Solicitation
                        No.2FYS-AJ-89-000lB
02/09/90   AOO198       Preaward Audit of Multiple Award Schedule Contract:
                        Surgikos, Inc., Solicitation No. TFTC-89-MR-686AB
02/13/90   AOO027       Pre award Audit of Multiple Award Schedule Contract:
                        Tennant Company, Solicitation No. 7FXG-N4-89-7927-B
02/13/90   A90828       Audit of Claim for an Equitable Adjustment: Max Blau &
                        Sons, Inc., Contract No. GS-00F-94056
02/15/90   A00357       Postaward Audit of Multiple Award Schedule Contract:                          1,640
                        The Hoover Company, Contract No. GS07F14599 for the
                        Period March I, 1987 to February 28, 1990
02/16/90   AOO040       Pre award Audit of Multiple Award Schedule Contract:
                        Carsonite International, Solicitation No. 7FXG-Z3-89-
                        9912-B
02/21/90   AOO177       Preaward Audit of Multiple Award Schedule Contract:
                        Minnesota Mining and Manufacturing Co., Commercial
                        Office Supply Division, Solicitation No. 2FYS-AJ-89-0001B
02/22/90   A00244       Preaward Audit of Multiple Award Schedule Contract:
                        Dranetz Technologies, Inc., Solicitation No. FCGS-Y4-89-
                        0002-B-N-12-5-89
02/26/90   A00243       Preaward Audit of Multiple Award Schedule Contract:
                        Vikonics, Inc., Solicitation No. 7FXI-C7-89-6302-B
02/26/90   A00248       Preaward Audit of Multiple Award Schedule Contract:
                        Neff Instrument Corporation, Solicitation No. FCGS- Y 4-
                        89-0002B-N-II-28-89
02/27/90   A00334       Preaward Audit of Multiple Award Schedule Contract: A.
                        Le Comte Co., Inc., Solicitation No. 7FXI-L5-89-190l-B




34
                                                                                            Financial
                                                                                        Recommendations
                                                                                      Funds to     Questioned
Date of    Assignment                                                                Be Put to    (Unsupported)
Report     Number                                  Title                             Better Use       Costs

02/28/90   A00209       Postaward Audit of Multiple Award Schedule Contract:                          2,955
                        Equipment Company of America, Contract No. GS-10F-
                        47212
02/28/90   A00229       Preaward Audit of Multiple Award Schedule Contract:
                        Esselte Pendaflex Corp., c/o Charles G. Stott & Co., Inc.,
                        Solicitation No. 2FYS-AJ-89-000l-B
02/28/90   A90355       Postaward Audit of Multiple Award Schedule Contract:                         13,527
                        Hy-Test, Inc., Contract No. GS-01F-09334
02/28/90   A90745       Postaward Audit of Multiple Award Schedule Contract:                      2,777,309
                        Hilti, Inc., Contract No. GS-06F-77785
03/02/90   A00234       Pre award Audit of Multiple Award Schedule Contract:
                        CXR Telcom Corporation, Solicitation No. FCGS-Y4-89-
                        0002-B-11-28-89
03/06/90   A00254       Preaward Audit of Multiple Award Schedule Contract:
                        Credit Bureau Reports, Inc., Solicitation No. FCGX-SO-
                        890020-N
03/06/90   A00269       Preaward Audit of Multiple Award Schedule Contract: EIP
                        Microwave, Incorporated, Solicitation No. FCGS-Y4-89-
                        0002-B-11-28-89
03/06/90   A00288       Preaward Audit of Multiple Award Schedule Contract:
                        Johnson Controls, Inc., Solicitation No. 7FXI-C7-89-
                        6302-B
03/06/90   A00295       Preaward Audit of Multiple Award Schedule Contract:
                        Bruel & Kjaer Instruments, Inc., Solicitation No. FCGS-
                        Y4-89-0002-B-N
03/07/90   A00287       Pre award Audit of Multiple Award Schedule Contract:
                        King-Fisher Company, Solicitation No. 7FXI-C7-89-
                        6302-B
03/08/90   A00137       Pre award Audit of Multiple Award Schedule Contract:
                        Nicolet Instrument Corporation, Solicitation No. FCGS-
                        Z7-89-00l8-B-11-N
03/13/90   A00163       Preaward Audit of Multiple Award Schedule Contract:
                        Packard Instrument Company, Solicitation No. FCGS-Z7-
                        89-0018-B-N
03/14/90   A00373       Postaward Audit of Multiple Award Schedule Contract:                         23,253
                        Nicolet Instrument Corporation, Contract No. GS-OOF-
                        93032 for the Period May 26, 1987 to April 30, 1990
03/15/90   A00160       Preaward Audit of Multiple Award Schedule Contract:
                        Finnigan Corporation, Solicitation No. FCGS-Z7 -89-0018-
                        B-11-1-89
03/15/90   A00313       Preaward Audit of Cost and Pricing Data: Educational
                        Research Systems, Inc., dba Executive Planning Systems,
                        Solicitation No. 2FYS-AJ-89-0001-B
03/16/90   A00278       Preaward Audit of Multiple Award Schedule Contract:
                        Kores Nordic (USA) Corporation, Solicitation No. 2FYS-
                        AJ-89-000l-B




                                                                                                              35
                                                                                           Financial
                                                                                       Recommendations- - -
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

03/20/90   A00370       Pre award Audit of Multiple Award Schedule Contract:
                        Thorn Automated Systems, Inc., Solicitation No. 7FXI-C7-
                        89-6302-B
03/21/90   A00253       Pre award Audit of Multiple Award Schedule Contract:
                        Seaark Marine, Inc., Solicitation No. 7FXI-L5-89-1901-B
03/22/90   A00402       Preaward Audit of Multiple Award Schedule Contract:
                        Federal Sales Service, Inc., Solicitation No. FCGE-El-89-
                        000 1B-N -1-9-90
03/23/90   AOO182       Preaward Audit of Multiple Award Schedule Contract:
                        TimeMed Labeling Systems, Inc., Solicitation No. 2FYS-
                        AJ-89-0001-B
03/23/90   AOO187       Preaward Audit of Multiple Award Schedule Contract:
                        McBee Loose Leaf Binders, Solicitation No. 2FYS-89-AJ-
                        0001-B
03/27/90   A00395       Preaward Audit of Multiple Award Schedule Contract:
                        Wiltron Company, Solicitation No. FCGS-Y4-89-0002B-N-
                        11-28-89
03/27/90   A00409       Postaward Audit of Multiple Award Schedule Contract:
                        Safemasters Co., Inc., Contract No. GS-07F-17163
03/28/90   A00271       Preaward Audit of Multiple Award Schedule Contract:
                        Secur-Data Systems, Inc., Solicitation No. 7FXI-C7-89-
                        6302-B
03/29/90   A00272       Preaward Audit of Multiple Award Schedule Contract:
                        Safemasters Co., Inc., Solicitation No. 7FXI-C7-89-6302-B
03/30/90   AOOl71       Preaward Audit of Multiple Award Schedule Contract:
                        Hewlett-Packard Company, Solicitation No. FCGS-Z7-89-
                        0018-B-11-1-89
03/30/90   A00242       Preaward Audit of Multiple Award Schedule Contract:
                        Corning Incorporated, Solicitation No. FCGS-Zl-89-0016B
03/30/90   A00328       Preaward Audit of Multiple Award Schedule Contract:
                        Ellenco, Inc., Solicitation No. 7FXI-C7-89-6302-B
03/30/90   A00358       Pre award Audit of Multiple Award Schedule Contract:
                        Zodiac of North America, Inc., Solicitation No. 7FXI-LS-
                        89-190l-B
03/30/90   A00364       Pre award Audit of Multiple Award Schedule Contract:
                        Faber Casteel Corporation, Solicitation No. 2FYS-AJ-89-
                        0001-B


IRMS Internal Audits
12/21/89   A90929       Review of the Information Resources Management
                        Service's Fiscal Year 1989 Assurance Statement
12/29/89   A90929       Review of the Information Resources Management
                        Service's Fiscal Year 1989 Assurance Statement, National
                        Capital Region
01/11/90   A80834       Review of Security Over Proprietary Information, IRMS


36
                                                                                           Financial
                                                                                       Recommendations
                                                                                                  -----
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

02/20/90   A90378       Review of Financial Controls Over the IT Fund
                        Information Security Services Program
03/08/90   A90481       Review of the Project for the Acquisition of GSA Systems
                        (GSAS)

IRMS Contract Audits
10/02/89   A90662       Preaward Audit of Multiple Award Schedule Contract:
                        Concurrent Computer Corp., Solicitation No. GSC-KESO-
                        00041-N-4-12-89
10/10/89   A90783       Audit of a Subcontractor Report: Tandem Computers
                        Incorporated, Contract No. GS-00K-86-AGS-5719
10/16/89   A90685       Pre award Audit of Multiple Award Schedule Contract:
                        Linotype Company, Solicitation No. GSC-KESO-C-00041-
                        N-4-12-89
10/16/89   A90888       Pre award Audit of Multiple Award Schedule Contract:
                        c.A.c.I.products Company, Solicitation No. GSC-KESO-
                        C-00041-N-4-12-89
10/23/89   A90859       Preaward Audit of Multiple Award Schedule Contract:
                        AICorp, Inc., Solicitation No. GSC-KESO-C-00041-N-4-12-89
10/23/89   A90907       Pre award Audit of Change Order Proposal: Southwestern
                        Bell Telecommunications, Inc., Contract No. GS-06F-
                        12784
10/26/89   A80424       Postaward Audit of Multiple Award Schedule Contract:                       161,599
                        Timeplex, Inc., Contract No. GS-00K-86AGS5256
10/30/89   AOOO04       Preaward Audit of Cost or Pricing Data: American
                        Systems Corporation, Solicitation No. GSC-OIT-9044
10/31/89   A90770       Preaward Audit of Multiple Award Schedule Contract:
                        Tandem Computers Incorporated, Solicitation No. GSC-
                        KESO-C-00041- N -4-12-89
10/31/89   A90867       Postaward Audit of Multiple Award Schedule Contract:                        11,901
                        AT&T Paradyne Corporation, Contract No. GS-OOK-
                        88AGS5976
10/31/89   A90898       Pre award Audit of Multiple Award Schedule Contract:
                        Aztek, Incorporated, Solicitation No. GSC-KESO-C-00041-
                        N-4-12-89
11/03/89   A90837       Preaward Audit of Multiple Award Schedule Contract:
                        General Electric Mobile Communications, Solicitation
                        No. GSC-KESV-00054-N-4-20-89
11/07/89   A90901       Preaward Audit of Pricing Proposal: Gemini Industries,
                        Inc., Solicitation No. GSC-OIT-9048
11/15/89   A90697       Preaward Audit of Multiple Award Schedule Contract:
                        AT&T Paradyne Corporation, Solicitation No. GSC-KESO-
                        C-00041-N-4-12-89
11/17/89   A90695       Preaward Audit of Multiple Award Schedule Contract:
                        Corinth Telecommunication Corp., Solicitation No. GSC-
                        KESR-00053- N -04-25-89


                                                                                                             37
                                                                                         Financial
                                                                                     Recommendations
                                                                                  Funds to      Questioned
Date of    Assignment                                                             Be Put to    (Unsupported)
Report     Number                                Title                            Better Use       Costs
11/24/89   A90891       Preaward Audit of Multiple Award Schedule Contract:
                        Magnovox Advanced Products and Systems Company,
                        Solicitation No. GSC-KESV-00054-N-4-20-89
11/28/89   A90815       Pre award Audit of Multiple Award Schedule Contract:
                        Storage Technology Corporation, Solicitation No. GSC-
                        KESO-C-00041-N-4-12-89
12/14/89   A90827       Preaward Audit of Multiple Award Schedule Contract:
                        Relational Technology, Inc., Solicitation No. GSC-KESO-
                        C-00041-N-4-12-89
12/22/89   AOO086       Preaward Audit of Multiple Award Schedule Contract:
                        Arix Corporation, Solicitation No. GSC-KESO-C-00041-N-
                        4-12-89
12/27/89   AOO1l2       Pre award Audit of Multiple Award Schedule Contract:
                        Audio Intelligence Devices, Solicitation No. GSC-KESV-
                        00054-N-4-20-89
01/10/90   AOO078       Preaward Audit of Cost or Pricing Data: Rugged Digital
                        Systems, Inc., Solicitation No. GSC-KESO-C-00041-N-4-
                        12-89
01/12/90   AOOO58       Audit of Termination Proposal: SMC Information
                        Systems, Contract No. GS-00C-60081
01/25/90   AOOO03       Audit of Claim for Increased Costs: SMC Information
                        Systems, Contract No. GS-00C-600S1
01/29/90   AOOO03       Audit of Claim for Increased Costs: SMC Information
                        Systems, Contract No. GS-OOC-60081
01/29/90   AOOO85       Pre award Audit of Cost or Pricing Data: Time and Space
                        Processing, Inc., Solicitation No. GSC-KESR-00053N-04-
                        25-89
01/29/90   A90712       Preaward Audit of Multiple Award Schedule Contract:
                        Harris Computer Systems Division, Harris Corporation,
                        Solicitation No. GSC-KESO-C-00041-N-4-12-S9
01/30/90   A00315       Preaward Audit of Pricing Proposal: AT&T, Federal
                        Systems Business Unit, Greensboro, North Carolina,
                        Solicitation No. KECI-89-019
02/12/90   A002lO       Preaward Audit of Pricing Proposal: CRC Systems, Inc.,
                        Contract No. GSOOK88AFD1100
02/20/90   A00249       Preaward Audit of Multiple Award Schedule Contract:
                        Vitalink Communications Corporation, Solicitation No.
                        GSC-KESF-B-C-00042-N-11-16-89
02/21/90   A00211       Preaward Audit of Multiple Award Schedule Contract:
                        Raytheon Marine Company, Solicitation No. GSC-KESV-
                        00057-N-11-20-89
02/23/90   A00226       Preaward Audit of Multiple Award Schedule Contract:
                        Zenith Data Systems, Solicitation No. GSC-KESF-B-C-
                        00042-N-11-16-89
02/23/90   A00276       Postaward Audit of Multiple Award Schedule Contract:           5,564      13,807
                        Zenith Data Systems, Contract No. GSOOK89AGS6470 for
                        the Period July 7, 1989 to March 31, 1990


38
                                                                                           Financial
                                                                                       Recommendations
                                                                                     Funds to     Questioned
Date of     Assignment                                                              Be Put to    (Unsupported)
Report      Number                                 Title                            Better Use       Costs

02/26/90    A00236       Preaward Audit of Multiple Award Schedule Contract:
                         3COM Corporation, Contract No. GSOOK89AGS6344
                         (Renewal)
02/26/90    A00258       Preaward Audit of Cost or Pricing Data: Network
                         Management Incorporated, Solicitation No. GSC-KESF-B-
                         C-00042-N-1l-16-89
02/28/90    A00247       Preaward Audit of Cost or Pricing Data: Falcon
                         Microsystems, Inc., Solicitation No. GSC-KESF-B-C-
                         00042-N-II-16-89
03/07/90    A00l56       Preaward Audit of Multiple Award Schedule Contract:
                         Sony Corporation of America, Solicitation No. GSC-KESV-
                         00056-N-II-21-89
03/07/90    A00237       Pre award Audit of Cost or Pricing Data: Aztek,
                         Incorporated, Solicitation No. GSC-KESO-C-00041-N-4-
                         12-89
03/07/90    A00277       Preaward Audit of Multiple Award Schedule Contract:
                         Bruning Computer Graphics, Modification of Contract No.
                         GSOOK89 AGS6423
03/09/90    A00286       Preaward Audit of Cost or Pricing Data: Bohdan
                         Associates, Inc., Solicitation No. GSC-KESF-B-C-00042-N-
                         11-16-89
03/13/90    A00307       Preaward Audit of Cost or Pricing Data: Arinc Research
                         Corporation, Contract No. GSOOK86-AJD0126/-
                         K0088AJ0008
03/15/90    A00267       Preaward Audit of Cost or Pricing Data: Government
                         Technology Services, Inc., Solicitation No. GSC-KESF-B-
                         C-00042-N-II-16-89
03/21/90    A90882       Postaward Audit of Multiple Award Schedule Contract:                       28,634
                         Unisys Corporation, Contract No. GSOOK87 AGS5860
                         (Option Year 1) for the Period October I, 1987 to
                         September 30, 1988
03/21/90    A90883       Postaward Audit of Multiple Award Schedule Contract:                       38,654
                         Unisys Corporation, Contract No. GSOOK88AGS5990 for
                         the Period October I, 1987 to September 30, 1988
0,3/27/90   A00219       Preaward Audit of Multiple Award Schedule Contract:
                         Panasonic Communications & Systems Company, Second
                         Renewal of Contract No. GS-OOK-88AGS-0l30
03/28/90    A00245       Preaward Audit of Multiple Award Schedule Contract:
                         Compaq Computer Corporation, Solicitation No. GSC-
                         KESF-B-C-00042-N-11-16-89
03/28/90    A00384       Preaward Audit of Multiple Award Schedule Contract
                         Renewal: System Technology Associates, Contract No.
                         GS-OOK-89-AGS-6405
03/29/90    A00246   Preaward Audit of Multiple Award Schedule Contract:
                     Amdahl Corporation, Solicitation No. GSC-KESF-B-C-
                     00042-N-11-16-89
03/30/90    A00212   Preawcud Audit of Cost or Pricing Data: Advanced Data
                     Concepts, Inc., Solicitation No. KEG-CSP 89-002


                                                                                                             39
                                                                                               Financial
                                                                                     ---
                                                                                           Recommendations
                                                                                       Funds to     Questioned
Date of    Assignment                                                                 Be Put to    (Unsupported)
Report     Number                                  Title                              Better Use       Costs

03/30/90   A00310       Preaward Audit of Cost or Pricing Data: Racal Guardata,
                        Incorporated, Contract No. GSC-KESF-B-C-00042-N-11-
                        16-89
03/30/90   A00377       Postaward Audit of Multiple Award Schedule Contract:                           3,701
                        Telxon Corporation, Contract No. GSOOK89AGS6428
                        for the Period May 30, 1989 to March 31, 1990
03/30/90   A00443       Postaward Audit of Multiple Award Schedule Contract:                           2,900
                        Gandalf Data, Inc., Contract No. GSOOK87 AGS5392-
                        PS02 for the Period June 20, 1989 to March 31, 1990
03/30/90   A90549       Postaward Audit of Multiple Award Schedule Contract:                         239,344
                        Philips Information Systems, Inc., Contract No. GS-OOK-
                        88AGS-5928



 Other Internal Audits
10/03/89   A90823       Review of Imprest Fund, West Philadelphia Field Office,
                        Philadelphia, PA, Region 3
10/19/89   A90927       Review of Imprest Fund, Public Buildings Service Field
                        Location, Fort Dodge, Iowa
10/27/89   A80620       Review of Non-Federal Receivables, Central Office
                        Controlled Procedures for the Information Technology
                        Fund (ADP Programs, General Ledger 265Xj
11/02/89   AOO022       Review of Imprest Fund, Norris Cotton Federal Building,
                        Manchester, NH
11/16/89   A90844       Review of Imprest Fund and Certified Invoice Procurements,                       948
                        Public Buildings Service, Atlanta East Field Office,
                        Region 4
11/17/89   A90647       Review of Imprest Fund, Twin Cities Field Office, Region 5
11/17/89   A90743       Review of Imprest Fund, Albuquerque Buildings
                        Management Field Office, Region 7
11/29/89   AOO049       Review of Regional Administrator's Fiscal Year 1989
                        Section 2 Assurance Statement, Region 2
11/29/89   AOO069       Review of Imprest Fund, Buffalo Buildings Management
                        Field Office
11/30/89   AOO039       Review of Regional Administrator's Fiscal Year 1989
                        Section 2 Assurance Statement, Region 6
12/08/89   AOO035       Review of Regional Administrator's Fiscal Year 1989
                        Section 2 Assurance Statement, Region 7
12/12/89   A90862       Review of Deputy Regional Administrator's Fiscal Year
                        1989 Section 2 Assurance Statement, National Capital
                        Region
12/14/89   A90926       Review of Imprest Fund, Public Buildings Service Field
                        Office, Des Moines, Iowa




40
                                                                                           Financial
                                                                                       Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                  Title                            Better Use       Costs

12/15/89   A90862       Review of Office of the Comptroller Fiscal Year 1989
                        Section 2 Assurance Statement
12/21/89   AOO043       Review of Regional Administrator's Fiscal Year 1989
                        Section 2 Assurance Statement, Region 9
12/21/89   A90863       Review of Office of the Comptroller Fiscal Year 1989
                        Section 4 Assurance Statement
12/28/89   AOO082       Review of Federal Property Resources Service Fiscal Year
                        1989 Section 2 Assurance Statement
12/29/89   A90904       Review of Imprest Fund, San Antonio Buildings
                        Management Field Office, Region 7
01/03/90   AOOO96       Review of Imprest Fund, Belle Mead Sub-Field Office,
                        Belle Mead, NL Region 3
01/08/90   A00208       Review of Imprest Fund, Santa Rosa Field Office, Region 9
01/09/90   A00200       Review of Imprest Fund, Rochester Buildings Management
                        Field Office, Region 2
01/23/90   A90862       Review of Office of Administration Fiscal Year 1989
                        Section 2 Assurance Statement
01/29/90   AOOl17       Review of Imprest Fund, John F. Kennedy Federal Building,
                        Boston, MA
01/31/90   A90868       Review of Imprest Fund, Building Manager, Jackson, MS,
                        Region 4
02/12/90   A90677       Review of GSA's Billing Process for Supply Sales
02/13/90   A90843       Review of Controls Over Advisory and Assistance Service
                        Contracts for Fiscal Year 1989
02/14/90   A00238       Review of Imprest Fund, Detroit Field Office, Region 5
02/28/90   AOO057       Review of Sensitive Payments
02/28/90   A90001       Reliability of GSA Data in the Federal Procurement Data
                        System
03/02/90   A00311       Review of Imprest Fund, Public Buildings Service Field
                        Location, Wichita, Kansas
03/08/90   A00335       Review of Imprest Fund and Travelers Checks, Regional
                        Office Building, Region 5
03/16/90   A00114       Review of Imprest Fund and Travelers Checks, Finance
                        Division, Region 7
03/28/90   A00412       Review of Imprest Fund, Sacramento Field Office, Region 9
03/29/90   AOO144       Review of Imprest Fund, East Bay Field Office, Region 9
03/30/90   AOO048       Review of Year-End Spending, Fiscal Year 1990
03/30/90   A00255       Review of Imprest Fund, Richmond Field Office,
                        Richmond, VA, Region 3
03/30/90   A90213       Review of Federal Buildings Fund Reimbursable Work
                        Authorization Receivables




                                                                                                             41
                                                                                           Financial
                                                                                       Recommendations
                                                                                     Funds to     Questioned
Date of    Assignment                                                               Be Put to    (Unsupported)
Report     Number                                 Title                             Better Use       Costs

Other Contract Audits
10/13/89   A90948       Preaward Audit of Cost or Pricing Data: Global Helicopter
                        Technology, Inc., Revised Proposal
11/02/89   A90737       Audit of Subcontractor Report: Concurrent Computer
                        Corporation, Contract No. GS-00K-88AG55985
11/17/89   A90822       Audit of Subcontractor Report: Philips Information
                        Systems Company, Contract No. GS-00K-88AGS-5928
01/26/90   AOOl16       Audit of Subcontractor Report: AT&T Communications,
                        Contract No. GS-00K-89AHD0008


Non-
GSA        Internal Audits
02/28/90   Aooon        Review of the National Transportation Safety Board's
                        Administrative Practices and Procedures
03/16/90   A90942       Review of the Financial Management Activities of the
                        Administrative Conference of the United States




42
APPENDIX II-SIGNIFICANT AUDITS FROM PRIOR
REPORTS
Under the Agency's audit management decision pro-           backing up data. These recommendations were sched-
cess, the Audit Resolution and Internal Controls            uled for completion in February and March 1990,
Division, GSA's Office of Administration, is responsible    respectively. As of March 31, 1990, the Audit
for ensuring implementation of audit recommendations        Resolution and Internal Controls Division had not
after a management decision has been reached. That          received documentation that the recommendations had
office furnished the following status information.          been implemented.
Fifteen audits highlighted in prior Reports to the
Congress have not been fully implemented. One report
is awaiting a management decision; one report is not        3.    Significant Audits Being
being implemented in accordance with cu~rently estab-             Implemented According to
lished milestones; and the remaining thirteen reports
are being implemented in accordance with currently
                                                                  Established Milestones
established milestones.
                                                            Purchase Order Form
1.    Significant Audit Awaiting                            Period First Reported: April 1, 1989 to September 30, 1989
      Management Decision                                   This review of a purchase order form found that the
                                                            design of the form caused problems with data entry,
                                                            processing, and mailing. The report contained one rec-
Rental Overpayments                                         ommendation; it has not yet been implemented.
Period First Reported: October 1, 1987 to March 31, 1988    The recommendation, which requires redesign of the
                                                            purchase order form, is scheduled for completion in
This OIG review found that a lessor had proposed, and
                                                            October 1990.
the contracting officer erroneously accepted, unallow-
able costs for escalation when computing a rent
increase. The report has been rel)1oved from GSA's          Microcomputer Security
management decision process because it is involved in
ongoing litigation.                                         Period First Reported: April], 1989 to September 30, 1989
                                                            A series of three OIG reviews identified deficiencies in
                                                            the protection of microcomputer data and software. As
2.    Significant Audit Not Being                           of March 31, 1990, implementation had been complet-
      Implemented According to                              ed for one report; one report, as previously reported, is
                                                            not being implemented in accordance with established
      Established Milestones                                milestones. The remaining report contained four rec-
                                                            ommendations; three have been implemented.
Microcomputer Security                                      The remaining recommendation requires training for
                                                            systems managers and users and is scheduled for com-
Period First Reported: April], 1989 to September 30, 1989   pletion in June 1990.
A series of three OlG reviews identified deficiencies in
the protection of microcomputcr data and software. As       Financial Management Controls
of March 31, 1990, implementation had been complcted
for one report; implementation was overdue on one           Period First Reported: April 1, 1989 to September 3~. 1989
report; and implementation was proceeding according
to established milestones on the remaining report. This     This review advised management that laws, regula-
section discusses the overdue audit. The audit being        tions, and procedures for processing vendor payments
implemented in accordance with established mile-            were not complied with. The report contained seven
stones is discussed in the next section.                    recommendations; six have been implemented.
The overdue report contains two recommendations;            The remaining recommendation involves actions to
they involve the preparation of instructions for man-       remedy the identified conditions. It is scheduled for
agers on storing sensitive data and requirements for        full imp!cmentation in June 1990.




                                                                                                                   43
Vacant Space Management                                     Payments For Overtime Services in Leased
                                                            Space
Period First Reported: October 1, 1988 to March 31, 1989
This review advised management that the computer-           Period First Reported: October 1, 1987 to March 31, 1988
generated list of space assigned to tenant agencies did     This consolidated report advised GSA that, while most
not agree with the actual status of the space. The          payments for building overtime services were handled
report contained seven recommendationsj six have been       effectively, internal controls required strengthening.
implemented.                                                Accordingly, the OIG made 17 recommendationsj 16
The remaining recommendation involves the selling or        have been implemented.
outleasing of a Federal building. Implementation is         The remaining recommendation involves recovering
scheduled for April 1990.                                   the cost of overtime services provided tenant agencies
                                                            at a border station. Implementation is now scheduled
                                                            for June 1990.
Multiple Award Schedule Program
Period First Reported: October 1, 1988 to March 31, 1989    Construction Contract Administration
This review identified the need for GSA action to           Period First Reported: April1, 1987 to September 30, 1987
improve the identification of the Government's office
machine needs. The report contained five recommen-          This review of the construction of a Federal building
dationsj one has been implemented.                          advised GSA management of the need to enforce the
                                                            requirements for schedules and price breakdowns in
One of the remaining recommendations requires the           construction contracts. The OIG made 13 recommen-
development of a monitoring system and is scheduled         dationsj 12 have been implemented.
for completion in May 1990. Another recommendation
involves contracting officer reviews of internal manage-    The remaining recommendation involves obtaining a
ment records. The other two recommendations involve         determination from an Architect and Engineering
the development of a comprehensive preaward procure-        Deficiency Committee and resolving any time consid-
ment automation system. They are all scheduled to be        erations. The recommendation was originally sched-
implemented by December 1992.                               uled for completion in June 1988, then implementation
                                                            was revised to June 1990.

Internal Controls Require Strengthening                     Energy Conservation in Leased Space
Period First Reported: October 1, 1988 to March 31, 1989    Period First Reported: April1, 1986 to September 30, 1986
This OlG review found that, while a GSA printing plant      This review of energy usage in leased buildings advised
was generally operating in compliance with policy and       GSA that, while notable progress had been made in
procedures, some internal controls needed to be             identifying and monitoring energy usage problems,
strengthened. The report contained two recommenda-          additional opportunities for energy conservation still
tionsj one has been implemented.                            existed. The OIG made ten recommendationsj nine
The remaining recommendation involves actions to            have been implemented.
ensure that established procedures to account for oper-     The remaining recommendation involves the perfor-
ating equipment are followed. Full implementation is        mance of energy conservation building studies. It is
scheduled for September 1990.                               scheduled to be fully implemented by April 1990.

Excessive Lease Payments                                    Telecommunications Systems Management
Period First Reported: April], 1988 to September 30, 1988   Period First Reported: October 1, 1985 to March 31, 1986
This review of escalation payments processed for a          This OIG review concluded that IRMS needed to
lease found that the lessor had received $212,998 in        strengthen its oversight role relative to Government
excess payments. The report contained one recommen-         telecommunications systems. We made 12 recommen-
dationj it has not yet been implemented.                    dationsj 11 have been implemented.
The recommendation, which requires deductions from          The remaining recommendation, which involves the
rental payments until the overpayment amount is             development and issuance of technical manuals, is
reached, is scheduled for completion in July 1990.          scheduled for full implementation in June 1990.




44
Excessive Tax Escalation Payments                            Fire and Life Safety Systems
Period First Reported: April 1, 1985 to September 30, 1985   Period First Reported.' October 1, 1983 to March 31, 1984
This June 4, 1985 review disclosed that the tax escalation   A series of seven OIG reviews identified deficiencies in
clause contained in GSA leases, coupled with some local      fire and life safety systems in GSA-controlled space. Six
taxing practices, resulted in exorbitant Government tax      reports had been fully implemented by September 1988.
escalation payments. The report contained eight recom-       The remaining report contained four recommendationsj
mendationsj six have been implemented.                       three have been implemented.
The two remaining recommendations generally involve          Implementation of the remaining recommendation,
specific actions to reduce GSA's liability for excessive     which involves the installation of a new fire alarm system
tax escalation payments. The recommendations were            in a Federal facility, is generally proceeding in accordance
originally scheduled for completion in November 1985         with the action plan, although delays have been experi-
and March 1986, respectively. Implementation dates for       enced and revised implementation dates have been grant-
both recommendations were renegotiated to May 1990.          ed. Full implementation is now scheduled for April 1990.




                                                                                                                      45
APPENDIX III-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                         enhancing debt management. These activities includ-
presented herein.                                                            ed the following:
                                                                                 •   Revised procedures for account servicing for
                                                                                     non-Federal receivables, including detailing debt
                                                                                     collection activity on debts owed GSA by GSA
                                                                                     employees.
GSA EFFORTS TO IMPROVE DEBT                                                      •   Referred 1536 delinquent accounts, valued at
COLLECTION                                                                           approximately $1.6 million, to debt collection
                                                                                     contractors for collection.
                                                                                 •   Reviewed accounts receivable operations in one
During the period October I, 1989 through March 31,                                  region to ensure compliance with the provisions
1990, GSA efforts to improve debt collection and                                     of the Debt Collection Act of 1982. This review
reduce the amount of debt written off as uncollectible                               included examinations of account servicing pro-
focused on upgrading collections functions and                                       cedures for non-Federal activity.




NON-FEDERAL ACCOUNTS
RECEIVABLE

                                                                      As of                   As of
                                                                  October 1, 1989         March 31,1990            Difference
     Total Amounts Due GSA .............................. .          $56,334,307             $56,281,844            $ (52,463)
     Amount Delinquent.. ................................... ..      $26,769,913             $30,963,492            $4,193,579

     Total Amount Written Off as Uncollectible
       Between 10/1/89 and 3/31/90 .................. .               $133,908



Of the total amounts due GSA and the amounts de-                             $17.7 million and $15.7 million, respectively, are being
linquent as of October I, 1989 and March 31, 1990,                           disputed.




46
